<html>
<title> - MISCELLANEOUS NATIONAL PARK AND MONUMENT MEASURES</title>
<body><pre>[Senate Hearing 107-219]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-219

           MISCELLANEOUS NATIONAL PARK AND MONUMENT MEASURES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 281                                S. 921
 
                           S. 386                                H.R. 1000
 
                           H.R. 146                              S. 1097
 
                           S. 513                                H.R. 1668
 
                           H.R. 182
 

                                     
                               __________

                             JULY 17, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources
               COMMITTEE ON ENERGY AND NATURAL RESOURCES
                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-918                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
                       Jeff Mow, Bevinetto Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
DeWine, Hon. Mike, U.S. Senator from Ohio........................    11
Dodd, Hon. Christopher, U.S. Senator from Connecticut............     4
Frohling, Nathan M., Tidelands Program Director, Connecticut 
  Chapter, The Nature Conservancy................................    46
Gallegher, Patricia E., Executive Director, National Capital 
  Planning Commission, on:
    S. 281.......................................................    23
    H.R. 1668....................................................    39
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     3
Hoffman, Deborah, Director, Passaic County Department of Economic 
  Development....................................................    50
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts.........    15
Parsons, John G., Associate Regional Director, Lands, Resources 
  and Planning, National Capital Region, National Park Service, 
  on:
    S. 281.......................................................    20
    H.R. 1668....................................................    37
    S. 513 and H.R. 182..........................................    41
    S. 386 and H.R. 146..........................................    43
    S. 921, H.R. 1000, and S. 1097...............................    54
Pascrell, Hon. Bill, Jr., U.S. Representative from New Jersey....     7
Roemer, Hon. Tim, U.S. Representative from Indiana...............    12
Scruggs, Jan Craig, President of the Vietnam Veterans Memorial 
  Fund...........................................................    25
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     2
Torricelli, Hon. Robert G., U.S. Senator from New Jersey.........    18

 
           MISCELLANEOUS NATIONAL PARK AND MONUMENT MEASURES

                              ----------                              


                         TUESDAY, JULY 17, 2001

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Daniel K. Akaka 
presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Subcommittee on National Parks will come 
to order. The purpose of this afternoon's hearing is to receive 
testimony on several park and memorial bills that are pending 
before the National Parks Subcommittee. The bills that we will 
consider today include S. 281, to authorize the design and 
construction of a temporary education center in the Vietnam 
Veterans Memorial; H.R. 1668 to authorize the Adams Memorial 
Foundation to establish a commemorative work on Federal land in 
the District of Colombia and its environs to honor former 
president John Adams and his legacy; S. 386 and H.R. 146 to 
authorize the Secretary of the Interior to study the 
suitability and feasibility of designating the Great Falls 
Historic District in the city of Paterson, New Jersey as a unit 
of the National Park System and for other purposes; S. 513 and 
H.R. 182 amended the Wild and Scenic Rivers Act to designate a 
segment of the Eightmile River in the State of Connecticut to 
study for potential addition to the National Wild and Scenic 
Rivers system; S. 921 and H.R. 1000 to adjust the boundary of 
the William Howard Taft National Historical Site in the State 
of Ohio to authorize an exchange of land in connection with the 
historic site and for other purposes; and S. 1097 to authorize 
the Secretary of the Interior to issue right-of-way permits for 
natural gas pipelines within the boundaries of the Great Smoky 
Mountains National Park.
    This is my first hearing as chairman of this subcommittee. 
Before we begin today I would like to thank my friend and 
colleague, Senator Thomas, for all his work on behalf of the 
national parks issue, as previous chairman of this 
subcommittee. We have had a tradition on this committee of 
dealing with national parks issues in a bi-partisan manner and 
I look forward to continuing to work closely with Senator 
Thomas and other members of the committee on these issues.
    We have several members of Congress scheduled to testify 
this afternoon along with Mr. John Parsons from the National 
Park Service and our other invited witnesses. I would like to 
welcome everyone to the committee. To ensure that we have 
enough time to hear from everyone, I would ask all witnesses to 
please limit your remarks to no more than 5 minutes. Your 
entire written statement will be included in the official 
hearing record.
    Now I would like to call on my colleague, Senator Thomas, 
for your statement.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you very much, Mr. Chairman. Aloha. 
We say that in Wyoming all the time, of course.
    [Laughter.]
    Senator Thomas. I want to thank you for this hearing. Let 
me congratulate you on your chairmanship. As you suggested, we 
have worked together and will continue to do that. I look 
forward to it. As you mentioned, our agenda today considers 
boundary adjustments, rights-of-way, special resource studies--
most of them are studies, which we agreed to sometime ago. 
Prior to making changes in the parks, there would be studies 
and we are pleased with that. Also, there is the Vietnam 
Veterans Memorial, and legislation that would authorize the 
Adams family memorial.
    But while H.R. 1668, authorizes the design, placement and 
construction of the Adams Memorial, it does not specifically 
address the siting of the proposed memorial within the area in 
and around the Mall. The legislation would make the memorial 
eligible for consideration within Area 1. At the present time 
there are seven other memorials already in line for placement 
within the boundaries of Area 1. In addition to World War II 
and the Air Force Memorial, authorization exists for memorials 
for the black Revolutionary war patriots, Martin Luther King, 
George Mason, Thomas Payne and the National Peace Garden.
    And of course, the discussion has always concerned the 
number of monuments that should be within Area 1. We addressed 
that during the 105th Congress. As a result of the work 
accomplished by the National Capital Planning Commission, we 
amended the legislation in this committee and passed it in the 
Senate unanimously during the 106th Congress, which would 
essentially codify the Commemorative Zone Policy offered to us 
by the Planning Commission. That legislation expanded the 
boundaries of Area 1 and established the area along the Mall 
known as the ``Reserve''--an area where no additional monuments 
would be placed.
    We need to address that policy, of course, and as we go 
forward with all of the important things that are out there. 
The Mall is a historic, monumental, open space which is a 
substantially complete work in public urban design. As I have 
already mentioned, there are seven unbuilt memorials and 
monuments which have already been authorized by the Congress, 
which will be constructed within the confines of Area 1.
    Depending on what the subcommittee may choose to do with 
the two bills, we have a perfect opportunity to revisit what we 
have accomplished in the 106th Congress. So, in any event, Mr. 
Chairman, I look forward to the witnesses and hope that we can 
come to some agreement on these bills that will be appropriate.
    Senator Akaka. Thank you very much, Senator Thomas.
    Senator Hagel.

          STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR 
                         FROM NEBRASKA

    Senator Hagel. Thank you. I have a statement that I would 
ask be included in the record.
    Senator Akaka. Without objection it will be included in the 
record.
    [The prepared statement of Senator Hagel follows:]
   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska
    Mr. Chairman, two decades ago, when I was serving as Deputy 
Administrator of the Veterans Administration, this subcommittee 
exhibited wisdom and foresight in approving legislation to create the 
Vietnam Veterans Memorial. The Memorial was envisioned as a place to 
provide healing, honor, and recognition to the men and women who served 
and sacrificed in Vietnam. The Memorial has transcended its role as a 
national symbol of recognition and, today, stands as a living history 
lesson.
    Today, this subcommittee will once again discuss the purpose and 
role of the Vietnam Veterans Memorial. On behalf on my three fellow 
Vietnam Combat veterans in the Senate, I have introduced S. 281, the 
Vietnam Veterans Memorial Education Act, to authorize the construction 
of a temporary, enhanced kiosk on the site of the current inadequate 
kiosk. Supporters of the Education Center include respected advocates 
for America's Veterans, National Veterans Organizations, prominent 
Vietnam Veterans such as Secretary of State Colin Powell, General Barry 
McCaffrey, Vice President Al Gore, and 55 Senate Co-Sponsors. Together, 
we envision this enhanced kiosk as an extension of the memorial's 
mission to help educate America's future generations who will one day 
lead our generation.
    Congressmen Watts and Murtha have introduced the identical 
legislation in the House of Representatives, where the legislation 
enjoys support of 138 Co-Sponsors.
    I suspect that most members of this committee can list a family 
they know who lost a loved one in Vietnam. However, a student who 
visits the Memorial today had not even been born during the Vietnam 
War. The Education Center is a relevant tool that will help them learn 
the context of the war and the history of the most visited memorial in 
Washington, D.C.
    When I began crafting this legislation, I contacted the National 
Park Service and the National Capital Planning Commission to confer 
with them about the Center. Both groups supported the intent, but had 
concerns regarding maintaining the integrity of the Memorial as well as 
the Mall. I therefore carefully wrote this legislation to address these 
concerns. Included in the legislation are a limit on the size of the 
structure, a review of the need for the structure after 10 years, a 
provision explicitly requiring approval of the design through the 
Commemorative Works Act, and a provision ensuring that no funding will 
be taken from the Memorial Fund's Memorial maintenance accounts.
    The Vietnam War was one of the defining events in modern American 
history. It is important that students learn more than just the dates 
and facts of the war. They need to have a greater understanding of the 
sacrifices that were asked of young Americans from another generation.
    The Education Center--featuring historic photographs and 
interactive displays--will focus on teaching young people more about 
the Memorial and military service in Vietnam. When students leave the 
Education Center, they will have learned not only that the war 
officially ended in 1975, but that someone just like them may have 
served or lost a loved one in the war. They will have experienced the 
emotions evoked when a veteran visits the Wall for the first time and 
touches the name of a fallen comrade. And, hopefully, they will walk 
away with an appreciation for all who have served and who do serve in 
America's Armed Forces.
    The Center will be an important educational resource that will add 
immensely to the visitor's experience at the Wall.
    Thank you Mr. Chairman.

    Senator Hagel. It is nice to be part of your team, Mr. 
Chairman.
    Senator Akaka. Thank you. It is great to be with you too, 
Chuck. We have several of our colleagues scheduled to testify 
today. I know that everyone has multiple commitments this 
afternoon, so please feel free to leave after you have finished 
testifying. To ensure that we have time to hear from your 
constituents, please try to keep your statements brief. We 
include your entire remarks in the hearing record.
    This is the order the Senators and Congressmen arrived and 
I would like to call you in that order. We certainly are 
fortunate and glad and happy to have all of you here. And may I 
call on Senator Dodd for your statement?

       STATEMENT OF HON. CHRISTOPHER DODD, U.S. SENATOR 
                        FROM CONNECTICUT

    Senator Dodd. Thank you, Mr. Chairman, very, very much. My 
chairman is sitting right to my left and I am tempted to defer 
to my chairman here. Chairman of the Rules Committee that 
covers our budget is on my right and I would like to defer to 
him.
    [Laughter.]
    Senator Dodd. He's been here a longtime and now you know 
why. Mr. Chairman, thank you very, very much. And I noted that 
we can submit our comments here for the record, so I will try 
to abbreviate them so as to not delay you or the other members 
of the Senate or the House who are here. But I am here today to 
appear before you--as you already noted, Mr. Chairman--to make 
an appeal to the members of this committee about the 
designation of the Eightmile River as part of the Wild and 
Scenic Rivers study.
    Senator Lieberman, my colleague, sponsors this bill. It has 
been introduced on the House side by Representative Simmons, 
whose district this wonderful waterway exists and the 
legislation has been endorsed by the entire Connecticut 
delegation--all members.
    I am also pleased, Mr. Chairman, to recognize in the 
audience Sue Merrow, who was the first select person of the 
town of East Haddam, Connecticut. And Nathan Frohling, who is 
head of the Tidelands Program and the manager of the 
Connecticut Chapter of the Nature Conservancy will be prepared 
to offer some detailed explanations for you or staff that would 
like to go in greater specificity about this river.
    The communities involved here--of East Haddam and Salem and 
Lyme, Connecticut--are some of the oldest communities in 
America, Mr. Chairman. In fact, the designation of the 
Eightmile River does not describe the length of the river. It 
describes the place where the Eightmile River comes out on the 
Connecticut River. And dating back, we believe in pre-
Revolutionary War days in old maps, the British were mapping 
rivers. You went eight miles up the Connecticut River and that 
is where this small river which runs through some of the most 
beautiful area in Eastern Connecticut actually comes out. So, 
the Eightmile River was a way of identifying where this river 
was located.
    Anyway, these people will be offering some testimony later 
on, Mr. Chairman, that goes into the designation of the 
specific reasons.
    For more than 30 years, Mr. Chairman, the Wild and Scenic 
River Program has been a very successful public/private 
partnership to preserve certain, select rivers in the free 
flowing States. Designation as a Wild and Scenic River would 
ensure that the river and surrounding watersheds are protected 
from development projects under the locally controlled 
conservation management plan, which works to preserve our 
rivers--natural and significant resources.
    I am confident that the Eightmile River significance and 
community support. More than 5 years ago, three Connecticut 
towns--I mentioned Salem, East Haddam and Lyme, Connecticut--
joined with the education and environmental groups to form the 
Eightmile River watershed committee and signed a conservation 
compact to preserve this wonderful body of water. Property-
owners along the river support this designation in order to 
preserve the natural resource that flows by and near their 
property. And finally the entire delegation, as I mentioned, 
has also endorsed this. So you have the support of property 
owners, the delegations of the State to all work together on 
this.
    The State of Connecticut, in fact, has recognized the 
Eightmile River as a river of importance. ``85% of its 
watershed is forested with 180 species of fish, birds, plants 
and reptiles live there. It is truly one of the most diverse 
and thriving ecosystems in the lower Connecticut River 
Valley.'' The area of Connecticut is certainly quite different 
and my colleague to my left certainly has wonderful knowledge 
of New England certainly to underscore this point.
    Connecticut is smaller, Mr. Chairman, than San Diego 
County, California, smaller than Yellowstone National Park. We 
reside in one of the most densely populated areas of America. 
Yet in the midst of this tremendous population density, there 
has been a wonderful effort to preserve these jewels of 
environmental ecosystems and great historical significance. And 
this lower Connecticut River Valley is just one of those areas 
and the Eightmile River plays a very important role 
historically, but also environmentally in this area. In 
addition to the water, the river itself is home to the 
Goodspeed Opera House, Gillette Castle Park, historic homes, 
farms, 19th century mills. Just along this river, Mr. 
Chairman--if you ever have the chance to go up, we would love 
to show you just the number of small graveyards that date back 
to the founding of the country; in the midst of the forest and 
there you will in encounter these remarkable very pastoral 
scenes and sights within feet of the Eightmile River.
    So, this is a body of water that is enjoyed--that has been 
enjoyed--by really thousands of people for many, many years. 
And we would like to see it preserved for years and years and 
years to come. In the midst of ever growing density of 
population and development, to be able to carve out these areas 
to leave as a legacy for future generations is something we all 
care deeply about in Connecticut. So I am honored to be sitting 
here this morning--this afternoon--on behalf of the entire 
delegation. This bill has passed the House and included in the 
House, legislation House bills, so we would like to have a 
complementary piece of legislation adopted here in the Senate. 
It is a river of national significance and this study will be 
that one further step along the way to helping us achieving the 
goal that is desired by all of us in the Constitution State. 
And I thank you for listening.
    [The prepared statement of Senator Dodd follows:]
       Prepared Statement of Hon. Christopher Dodd, U.S. Senator 
                            From Connecticut
    Chairman Akaka, ranking member Thomas and members of the 
subcommittee, I appreciate the opportunity to testify in support of S. 
513 and H.R. 182, the Eightmile River Wild and Scenic Rivers Study Act. 
I am pleased that Senator Lieberman co-sponsored this important 
legislation and Representative Simmons of Connecticut introduced 
similar legislation in the House of Representatives. The House gave its 
support to the Eightmile study in early May.
    I would like to welcome Sue Merrow, the First Selectman of East 
Haddam, Connecticut and Nathan Frohling, the Tidelands Program Manager 
at the Connecticut chapter of the Nature Conservancy. They have worked 
tirelessly to preserve the Eightmile River and bring together a diverse 
constituency in support of Wild and Scenic designation. They will be 
offering testimony later and will be better able to answer any 
technical questions the subcommittee may have. I also look forward to 
hearing from the National Park Service. I recognize that there is some 
concern about the growing maintenance backlog, but it is imperative 
that we do not put off a study of the Eighmile River.
    For more than 30 years, the Wild and Scenic River program has been 
a successful public-private partnership to preserve certain select 
rivers in a free-flowing state. Designation as a Wild and Scenic River 
would ensure that the river and surrounding watershed are protected 
from development projects under the locally controlled Conservation 
Management Plan, which works to preserve a river's natural and 
significant resources.
    I am confident of the Eightmile River's significance and community 
support. More than five years ago, the three Connecticut towns of 
Salem, East Haddam and Lyme joined with educational and environmental 
groups to form the Eightmile River Watershed Committee and signed a 
Conservation Compact to preserve the river. Property owners along the 
river support designation in order to preserve the natural resource 
that flows by and near their property. Finally, the entire Connecticut 
delegation has endorsed designation of the Eightmile River in order to 
retain the integrity of this river. You know as well as I do how 
uncommon it is to have such overwhelming support and enthusiasm among 
diverse constituencies.
    The State of Connecticut has recognized the Eightmile River as a 
``River of Importance''. Eighty-five percent of its Watershed is 
forested and more than 180 species of birds, fish, plants and reptiles 
live there. It is truly one of the most diverse and thriving ecosystems 
in the lower Connecticut River Valley.
    This area of Connecticut is quite different from other parts of the 
country. Just a short drive from the metropolitan areas of New Haven 
and Hartford, Connecticut and a little more than an hour from New York 
City, the neighboring towns of East Haddam, Lyme and Salem offer its 
residents cultural, recreational and environmental treasures. It is 
home to the renowned Goodspeed Opera House, Gillette Castle, state 
parks, historic homes, farms, and nineteenth-century mills. 
Recreational opportunities abound, whether it be hiking, biking, 
swimming or fishing.
    Mr. Chairman, Connecticut is a small state--less than 5,000 square 
miles--and is densely populated. Our citizens are committed to 
balancing conservation and growth. That is why this designation is so 
important. While the state and local groups have done exceptional work 
so far, this designation would bring in federal technical assistance 
and foster coordination among the many concerned groups.
    The Eightmile River is a nationally significant resource. I urge my 
colleagues to report this bill from committee at the earliest 
convenience.

    Senator Akaka. Thank you very much, Senator Dodd. May I ask 
Senators Thomas or Hagel if you have any questions?
    Senator Thomas. I do not.
    Senator Akaka. Otherwise may I permit them to leave when 
they are done?
    Senator Thomas. We would be delighted.
    Senator Dodd. Well Aloha to you, Senator.
    [Laughter.]
    Senator Thomas. May I say I do appreciate that you 
described your State and of course it is different than ours. 
We have a lot of space. But you certainly do need to conduct a 
few studies to protect these areas.
    Senator Dodd. I appreciate that.
    Senator Akaka. We are quite envious of Connecticut's 
nuclear power. All of America should have more nuclear power. 
We appreciate Connecticut's leadership, Senator.
    Senator Dodd. Well, the truth in advertising, I suppose I 
should tell you that I used to live in East Haddam, 
Connecticut, one of the towns mentioned here. And I lived, and 
Sumera was right behind me--my mayor. I lived in the old 
schoolhouse in town. It was an old schoolhouse from 1853 to 
about 1948--the two-room schoolhouse. The successor 
schoolhouse, right down the road, where Nathan Hale taught, 
that schoolhouse is still there. This is the schoolhouse that 
preceded it and right within almost up the river from me is the 
oldest nuclear powerplant in America--the Connecticut Yankee 
Power Plant--which is now been retired and they are in the 
process of moving it along.
    So, we have tried to manage it through the years--
intelligent energy development as well as conservation. We are 
wrestling with the issue now of what to do with the town of 
Haddam, Connecticut on the other side of the Connecticut River, 
that lost a tremendous amount of its tax base as a result of 
this powerplant closing down; wrestling with how to use that 
property well to make sure that there is not going to be any 
contamination and spills or problems associated with waste 
materials. There are some delicate questions about lower 
Connecticut River Valley.
    Senator Hagel. Thank you.
    Senator Dodd. Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Dodd.
    The next person is Representative Pascrell.

             STATEMENT OF HON. BILL PASCRELL, JR., 
              U.S. REPRESENTATIVE FROM NEW JERSEY

    Representative Pascrell. Thank you, Mr. Chairman and the 
entire subcommittee for the opportunity to testify here today. 
My legislation H.R. 146 and I join the good Senator from our 
State, Senator Torricelli. This calls for a study of the Great 
Falls National Historic District in my hometown of Paterson, 
New Jersey, to determine the feasibility of adding it to the 
National Park System. Legislation passed unanimously on the 
same day that the Congressman Simmons had his legislation and 
we worked very closely in a bi-partisan way and now it is 
before the Senate.
    Alexander Hamilton, who has been revisited so many times in 
the last several years, has become a hero in our time. 
Alexander Hamilton recognized the incredible beauty and 
potential of the Great Falls when he founded Paterson, New 
Jersey in 1792. It was America's first planned industrial city 
and I believe it is our duty to ensure its preservation for 
generations to come.
    Tours pour into the district every year to see the seventy-
seven foot Great Falls of the Passaic River which is 3 minutes 
from City Hall, Paterson, New Jersey--the third largest city, 
probably the most densely populated city in the State of New 
Jersey. The Falls and the surrounding neighborhood really 
represent the genesis of the American economic miracle. In 
increasing the presence of the National Park Service, will give 
the area the attention and resources it rightful deserves.
    From the first revolver--Sam Colt's, fireworks, the first 
locomotive in the Rodgers Works, the first airplane engines and 
of course silk--Paterson for a long time was the silk city of 
the entire Nation and the world, for that matter. These 
buildings represent the various stages of the Industrial 
Revolution. Waves of immigrants came here from Europe, just as 
waves since then from all over the world. This is where people 
worked in the mills.
    And Alexander Hamilton had this idea long before those 
mills were constructed. He saw the Falls as a tremendous 
potential, not only for the city that was in the bend of the 
river where Paterson was constructed, but he saw this as a 
great opportunity for manufacturing. He established the society 
for Useful Manufacturers which is basically pro forma for many 
other organizations, business organizations that have since 
followed.
    The employment opportunities of Paterson, New Jersey are 
historic. Between 1850 and the turn of the century, the 
population of Paterson increased from 11,000 to 105,000. 
Paterson is representative of the waves of immigrants that made 
this country so great; really reflected in a lot of John 
Updike's work, in his poem about little small cities of 160,000 
people right now. Chronically the patterns and cultures of the 
immigrants that came to Paterson from the 18th century to the 
20th century would provide us a microcosm of the affects of 
immigrants in the shaping of the United States. On teaching 
modern-day Americans about the history of industry, the mills 
of the Great Falls also set the backdrop for the history of the 
labor movement in this country. The fact the only labor museum 
in the entire Nation is 5 minutes away.
    The bill before us is the first legislative step taken on 
behalf of the Great Falls towards joining with the National 
Park Service. I see here a synergistic partnership with the 
National Park Service; a city reaching out--and for an area 
reaching out--not only for economic development, not only to 
preserve--not wanting to preserve our history beyond purple 
ropes, but to use that history for the future of the 21st and 
22nd century for the new immigrants that have arrived.
    I have long thought that the Passaic River and the Great 
Falls are not only a critical part of our history, they are the 
key to our future, and we must do all we can in united fashion 
to protect these valuable assets. I was mayor of Paterson and I 
came before this committee in this very room, Mr. Chairman, in 
1992--how time passes quickly--to convince the Congress that 
this area was worth protecting. I was proud to work with our 
former Senator, Senator Frank Lautenberg and now our present 
Senator, Senator Bob Torricelli, to secure Federal funds to 
revitalize this historic district.
    Our work paid off then. I hope it pays off now. When we 
initiated the Urban Street Initiative where we restored and 
rebuilt Stoney Road Bridge over the upper raceway as well as 
many hiking paths that pass through the district. This helps 
strengthen a relationship between the National Park Service and 
the city of Paterson that is ongoing today. The city of 
Paterson has an even longer history of working with the Federal 
Government to preserve its historic lands. In 1976, I--a 
Democrat--introduced a Republican President Ford, a President 
who recognized not only symbolically but also in reality what 
the Falls was all about. We became part of a national 
historical landmark.
    So, the Park Service has long been aware of our need to 
protect and save this area. Today you will hear from Deborah 
Hoffman, executive director of the Passaic Country Development 
Corporation. The county, of course, is the larger entity. She 
will share with you many examples of the economic rejuvenation 
being experienced by the county, and how the presence of the 
National Park Service will make that growth even more 
expansive.
    Mr. Chairman and members, I want to close out with the 
design guidelines itself from 1999 presented to us by the 
National Park Service. ``The district bears eloquent testimony 
to astounding feats of engineering, construction, ingenious 
manufacturers into the courage and creativity and drudgery of 
untold lives spent within those mills. It is also about the 
human propensity to harness the forces of nature to put water 
and gravity and stone to work. The district the sense of having 
been one large factory driven by one powerful engine; an image 
completely consistent with Hamilton's vision of a centralized 
manufactory.''
    Mr. Chairman, in conclusion, this area has the 
significance. This area is suitable. This area is feasible, 
which are the criteria--the very criteria--of course, the 
National Park Service. And I thank you for listening and I am 
honored to be here in your presence.
    [The prepared statement of Representative Pascrell 
follows:]
  Prepared Statement of Hon. Bill Pascrell, Jr., U.S. Representative 
                            From New Jersey
    Thank you, Mr. Chairman and the entire subcommittee, for allowing 
me the opportunity to testify here today. My legislation--H.R. 146--
calls for a study of the Great Falls National Historic District in my 
hometown of Paterson, New Jersey to determine the feasibility of adding 
it to the National Park System.
    There is no dispute that the Great Falls Historic District 
possesses a historic significance that makes it an area to be preserved 
and treasured. The history here is rich. Alexander Hamilton realized 
the incredible beauty and potential of the Great Falls when he founded 
Paterson in 1792 as America's first planned industrial city and it is 
our duty to ensure its preservation for generations to come.
    Already, tourists are pouring in every year to see the 77-foot 
Great Falls of the Passaic River and to partake in our preserved 
history. For the past 12 years, an average of 20,000 yearly visitors 
have attended the Paterson Museum in the Historic District. And the 
Great Falls Visitors Center reports almost 5,000 visitors to the center 
in the last year.
    The Falls and the surrounding neighborhood really represent the 
genesis of the American economic miracle, and increasing the presence 
of the National Park Service here will give the area the attention and 
resources it rightly deserves.
    As a key to our manufacturing roots, the mills that sit today at 
the Great Falls constructed paper, cotton. They manufactured the first 
revolver at Samuel Colt's Works, the first locomotives at the Rodgers 
Works, as well as airplane engines, and, of course, silk. Paterson is 
known around the world as the Silk City. These buildings represent the 
various stages of the industrial revolution in the United States. They 
stand as monuments to progress, and could provide living museums for 
present day Americans to learn about this important part of our 
history.
    As a result of the employment opportunities that abounded in 
Paterson because of the mills, the city's population grew and 
diversified rapidly. Between 1850 and the turn of the century, the 
population of Paterson increased from 11,000 to 105,000--growing by an 
average of 50 percent per decade.
    As a result, Paterson is representative of the waves of immigration 
in the United States, as Irish and English immigrants were replaced 
later by Italians, and then subsequently Spanish-speaking populations 
who still reside there today.
    Chronicling the patterns and cultures of the immigrants that came 
to Paterson from the 18th through the 20th centuries would provide us 
with a microcosm of the effect of immigrants in the shaping of the 
United States.
    This convergence between the burgeoning industrial workplace and 
the fledgling immigrant communities resulted in conflicts that led to 
the modern day labor movement.
    The historic labor unrest in Paterson focused on anti-child labor 
legislation, safety in the workplace, minimum wage, and reasonable 
working hours. Some of the most important figures in early 20th Century 
American labor history were involved in the Great Silk Strike of 1913.
    While teaching modern day Americans about the history of industry, 
the mills at Great Falls also set the backdrop for the history of the 
labor movement. Today they can teach both histories--so tightly 
intertwined--together.
    Not only is the Great Falls Historic District historically 
significant, but the City of Paterson stands ready to work in 
conjunction with the National Park Service to develop its potential. My 
goal is to create a synergistic partnership between the City of 
Paterson and the National Park Service. I am confident that Paterson is 
up to the task.
    This bill is the first legislative step I have taken on behalf of 
Great Falls toward joining the National Park Service. But it is not the 
first time I have worked with the City of Paterson to enhance and 
develop this valuable and important area. I have long thought that the 
Passaic River and the Great Falls are not only a critical part of our 
past history. They are the key to our future, and we must do all we can 
in a united fashion to protect these most valuable assets.
    As Mayor of Paterson, I went to Washington in 1993 to testify 
before the House Subcommittee on Parks and Public Lands to help 
convince Congress that this area was worth protecting.
    I was proud to work closely with our former U.S. Senator Frank 
Lautenberg to secure federal funds to revitalize the Great Falls 
Historic District. Our work paid off, and the following year I stood 
with Senator Lautenberg on the steps of the Paterson Museum and 
accepted $4.1 million in federal dollars secured under the Urban 
History Initiative to restore and rebuild the Stoney Road Bridge over 
the Upper Raceway as well as hiking trails.
    This helped strengthen a relationship between the National Park 
Service and the City of Paterson that is ongoing today. But the City of 
Paterson has an even longer history of working with the federal 
government to preserve its historic lands.
    The Great Falls district has been on the National Register of 
Historic Places since 1970 and has been a National Historic Landmark 
since 1976. Since 1988, the Interior Department has listed the district 
as a Priority One threatened National Historic Landmark. So the Park 
Service has long been aware of our need to protect and save this area.
    You will hear later from Deborah Hoffman, the Executive Director of 
the Passaic Economic Development Corporation, who will share with you 
many examples of the economic rejuvenation being experienced in the 
county and how the presence of the National Park Service would make 
that growth even more expansive.
    These Falls really represent our city, its people and all its 
potential. This place can be a real destination that will create jobs, 
grow businesses and bring people in from all over. We cannot put a 
velvet rope around the district--we must make it a living, breathing 
attraction that will celebrate our past, present and future.
    In conclusion, I will steal the words of the National Park Service 
in the Design Guidelines they created for the Great Falls Historic 
District in 1999:

          The district bears eloquent testimony to astounding feats of 
        engineering and construction, to ingenious manufacturers, and 
        to the courage, creativity, and drudgery of untold lives spent 
        within the mills. It is also about the human propensity to 
        harness the forces of nature, to put water and gravity and 
        stone to work. The district retains the sense of having been 
        one large factory driven by one powerful engine, an image 
        completely consistent with Hamilton's vision of a centralized 
        national manufactory.

    Thank you again for this opportunity.

    Senator Akaka. Thank you very much for your statements. If 
there are no questions the next witness is Representative 
Roemer. But I know Senator Kennedy and Congressman Roemer are 
both testifying on the Adams Memorial Bill and if 
Representative Roemer would be willing to defer, we can hear 
from Senator DeWine first.
    Representative Roemer. I have plenty of time. That would be 
fine.
    Senator Akaka. May I then call on Senator DeWine.

          STATEMENT OF HON. MIKE DeWINE, U.S. SENATOR 
                           FROM OHIO

    Senator DeWine. I will be brief Mr. Chairman. Mr. Chairman, 
Senator Thomas, Senator Hagel let me begin by thanking you for 
inviting me to testify in regard to S. 921 the William Howard 
Taft Boundary Adjustment Act. We thank John Parsons, who you 
are going to hear from in a moment, who is from the National 
Park Service, for his testimony today. Let me also thank my 
colleague from Ohio, Congressman Rob Portman, for introducing 
the companion measure in the House, H.R. 1000. This has already 
passed the House of Representatives.
    I strongly support the preservation of Presidential 
historic sites. I believe we must do all we can to protect 
these landmarks and see to it they are properly maintained. 
That is why last year I introduced the Presidential Sites 
Improvement Act and plan to reintroduce it later this year. 
That bill will provide grant money for the protection and 
improvement of presidential sites.
    But that is not what we are here about today. What we are 
here about today is the William Howard Taft Boundary Adjustment 
Act which will complement our earlier effort on helping the 
National Park Service improve and protect the overall Taft site 
in Cincinnati, Ohio. William Howard Taft was our Nation's 27th 
President and the only President to also serve as Chief Justice 
of the U.S. Supreme Court. He was born in Cincinnati in the 
year 1857. The William Howard Taft National Historical Site 
consists of his birthplace and his boyhood home. And I have had 
the privilege, of course, with all of my children, of visiting 
this wonderful site.
    While President Taft and his siblings were growing up in 
the house, his family was an integral part of the social, the 
intellectual and, yes, the political fabric of Cincinnati. The 
Taft house was obviously the site of many important gatherings. 
This bill would help the Park Service better address the needs 
of the Taft home historic grounds. The site is the only 
memorial to the former President and our bill would authorize 
the expansion of the site. This would also authorize the 
Secretary of the Interior to allow the National Park Service to 
swap one section of equal-valued land for another.
    Mr. Parson will speak in greater detail about the Park 
Service plans that will not only improve the overall site, but 
also--I would add--would help the community as well. Ultimately 
I believe this legislation will help make a lasting commitment 
to future generations by preserving the memories and the 
contributions of President William Howard Taft. I thank the 
Chair and I thank the committee.
    Senator Akaka. Thank you very much for your statement. Are 
there any questions?
    Senator Thomas. At home, a section is 640 acres. Is that 
what you are talking about?
    Senator DeWine. As far as----
    Senator Thomas. You said you were going to exchange one 
section for another.
    Senator DeWine. I apologize Senator. They were talking 
about one area. I should have used the word ``area.''
    Senator Thomas. That is three-quarters of an acre, right?
    Senator DeWine. Yes. I apologize. I will be more precise 
next time.
    Senator Akaka. Let me call on the next witness, 
Representative Roemer.

                 STATEMENT OF HON. TIM ROEMER, 
                U.S. REPRESENTATIVE FROM INDIANA

    Representative Roemer. Mr. Chairman, with all due 
seriousness, we are Senate side and Senator Kennedy is the lead 
sponsor on this side of this bill, and I am going to defer to 
him to start the testimony.
    Senator Kennedy. That's all right. You can go ahead.
    Representative Roemer. First of all, Mr. Chairman, thank 
you very much for the opportunity to be before you. Thanks to 
your staff for the expedited consideration of this. Thank you 
too, of course, Mr. Thomas--my colleague from the House days. 
It is nice to see him again. And Mr. Hagel, I hope this is 
interesting, for the last time we saw each other we were both 
in line to watch a Disney movie with our families.
    John Adams is fascinating and anybody who has made it 
through--as I just did--McCullough's 651-page book on John 
Adams. And I now I am supposed to explain why this Nation 
should remember this great and honorable man's achievements in 
5 minutes. It is quite a task. Let me try to do it.
    First of all, we have done it in a very bi-partisan way--in 
the House where Chairman Hansen and Chairman Heffley on the 
Republican side reported this on a subcommittee, full committee 
and it passed on voice vote in the House of Representatives. 
Eleanor Holmes North, the District representative who 
represents the Mall and is very, very protective of the Mall, 
said not only is she fully supportive of this legislation to 
commemorate John and Abigail Adams and the Adams family--
particularly John Quincy Adams--but this bill is the model for 
the way to go about a putting a monument somewhere in D.C. So, 
we have her strong support, as well.
    Thomas Jefferson, who gets so much credit and so much 
press, said this about John Adams' role in the Declaration of 
Independence. ``His power of thought and expression moved us 
from our seats.'' John Adams was the voice, the passion, the 
articulation, the eloquence of convincing the American people 
to take the huge risk for independence; something never done 
before with success to break away with Great Britain; something 
that he led the efforts, headed the commissions, and the 
Continental Congress to argue passionately for our independence 
when one-third of the country was Tory, one-third of the 
country was True Blue, and one-third was undecided.
    While George Washington was indeed our first President, was 
indeed the first to hold the office of the Presidency and 
represent the executive branch, some might argue that John 
Adams was our first President in terms of the legislative 
branch and seeing that Declaration of Independence through.
    He also was instrumental in advising members of Congress 
for the separation of powers. In writing, as Senator Kennedy 
who has been thumbing through a book the Library of Congress 
has shared with us, the defense of the Constitution of the 
Government of the United States of America written in 1787 
articulating in this book that ours was a Nation of laws, not 
of men. And that we needed a separation of power, 
independence--Adams crucial role--separation of powers--the 
appointment of John Marshall to indeed argue that we had a 
Nation of laws and not of men. Maybe the greatest Chief Justice 
in the history of the United States and an Adams appointment. 
And then, of course, arguing for peace and be our diplomat for 
the Treaty of Paris in 1783.
    He probably made his best choice in life in marrying 
Abigail Adams who was his equal, his partner, his equal in 
eloquence in letters and in raising probably the most dazzling 
and brilliant public service family in the history of our 
country when you look at John Adams and his son John Quincy 
Adams, the sixth President. You look at his son Charles Francis 
Adams who Lincoln appointed to keep Great Britain out of the 
Civil War in the 1860 through 1865 period. And then his son, 
Henry Adams who was maybe one of the most gifted historians in 
the history of the country.
    One generation of brilliance, of dedication to public 
service, of writing skills after another and somehow we have 
forgotten this family. We have neglected this family in putting 
up our Nation's monuments and memorials in this great town. Not 
far from here in our Nation's Capital is John Trumbull's 
picture of the signing of the Declaration of Independence. And 
front and center, determined and confident, right in the very 
middle of that portrait is John Adams standing there ready to 
articulate in the most eloquent, fiery and passionate terms why 
we needed to break away from Great Britain, why we needed our 
independence and how we could form the different institutions 
of a great republic, of a democracy for our Nation, for our 
history.
    I guess little did he know that a Nation was not just born 
there but to born and unborn millions of people throughout 
decades and centuries later this country and the things that 
Adams articulated still stand. The ideals and for the passions 
and for the liberties and freedoms that other people all over 
the world look to and are trying to establish their form of 
government.
    I hope the Senate will act as expeditiously as the House 
did in passing this tribute to John and Abigail Adams and John 
Quincy Adams and to this great legacy of the Adams' family 
contributors to the very many strengths of our system have been 
so eloquently put forward by the Adams' family. I have enjoyed 
working with Senator Kennedy on this bill and greatly respect 
his contributions both to this legislation but also over his 
many years as a U.S. Senator and his family's contributions as 
well.
    I have a long statement, Mr. Chairman, that I will enter 
into the record at this point but I hope that we can pass this 
legislation in a truly bi-partisan way and do justice to this 
wonderfully unique and talented family.
    [The prepared statement of Representative Roemer follows:]
Prepared Statement of Hon. Tim Roemer, U.S. Representative From Indiana
    We are here today because the question has been asked: why is there 
no fitting memorial to John Adams and his family's tremendous legacy in 
American politics?
    Pulitzer Prize winning author, David McCullough, has made the case 
that John Adams's contributions as a colossus of independence; as an 
equal partner with Washington and Jefferson as a creator of our 
country; as the first Vice President and second President; as a skilled 
diplomat negotiating peace with England and later with France; as an 
author of one of the most important diaries, and perhaps the most 
important letters with Thomas Jefferson, are too great not to be 
immortalized among his colleagues.
    As a public servant, my fascination with Adams extends through 
three generations of his descendants. As a family, the Adamses were the 
guardians of our republic, from its creation through adolescence. Their 
courage and prophetic wisdom kept us out of war, built the foundation 
of American foreign policy, transcended party politics, and displayed 
independence in critical times. It is time to embrace their 
contributions with a proper memorial in our capital city.
    One of the few people truly comparable to John Adams both in 
passion and intellect was his wife, Abigail. Those who knew them 
personally called their union perfect. Abigail's letters to her husband 
reveal not only her wit and intelligence, but also a profound belief in 
the equality of women that was more than 100 years before its time.
    As a member of Congress, I am particularly intrigued by John Quincy 
Adams, the quintessential public servant, and son of John Adams. John 
Quincy Adams began his career as a diplomat, skillfully serving 
America's national interests in Russia, the Netherlands, Portugal, 
Prussia, and Great Britain. Under President Madison he negotiated the 
Treaty of Ghent, and as Secretary of State during the Monroe 
Administration, he helped create the most important and decisive 
foreign policy statement of its time, The Monroe Doctrine.
    John Quincy Adams's Presidency was ambitious. Like his father, he 
believed that the government should invest in education and science for 
the betterment of its citizens. He proposed a national university and 
observatory. He pursued his agenda with tenacity and initiative, and 
like his father, enjoyed negligible political support. Like his father, 
he served only one term as President.
    A true public servant, John Quincy Adams returned to public life 
after a brief hiatus to serve in the U.S. House of Representatives from 
his hometown of Quincy, Massachusetts. In his nine terms, he spoke of 
no issue more often--or with more vigor--than slavery. Like his 
parents, John Quincy Adams was a stolid abolitionist, known to his 
colleagues as ``old man eloquent.'' He died at the ``post of duty'' as 
a dedicated public servant, suffering a stroke on the floor of the 
House. He passed away two days later in the U.S. Capitol.
    John Quincy Adams's son, Charles Francis Adams, spent his formative 
years in Washington, learning through the examples of his distinguished 
predecessors. As he entered into politics, Charles Francis Adams became 
increasingly disenchanted with the insincerity and outright corruption 
of his generation of leaders in Washington. He soon bolted the Whigs in 
favor of the Free Soil Party, which organized around the principles of 
a profound opposition to slavery. He received the Party's Vice 
Presidential nomination in 1848, and eventually held his father's old 
seat in the U.S. Congress. In 1860, President Lincoln tapped Charles 
Francis Adams--now a member of the new Republican Party, and widely 
known for his sharp intellect and persuasive powers--to act as 
Ambassador to England in order to prevent British military support for 
the Confederacy. His logic, reserve and directness achieved functional 
neutrality from Britain, which helped to preserve the integrity of our 
Union.
    Charles Francis Adams's son, Henry Adams, shared his father's 
frustration with politics and corruption in Washington. His 
observations steered him towards journalism, where he described the 
shortcomings of modern politics without falling prey to them. A 
``liberal Republican,'' Henry Adams wrote pointed, brilliant essays 
exposing political fraud and dishonesty. He shared the idealism and 
independence of his heritage, never putting politics above his 
convictions. Henry Adams was also an accomplished academic, teaching 
Medieval History at Harvard, and the first American to employ the 
``seminar'' method of instruction. Henry Adams is best known for his 
acclaimed autobiography, The Education of Henry Adams. Some have called 
it the greatest autobiography in American history.
    The Adamses occupy a position in American history unequaled by any 
other family. They helped create our nation as champions of freedom; 
they helped defend and guide it during its vulnerable, early days; and 
they helped preserve it through the most divisive battle in American 
history. They devoted their lives to our Republic, and it is time to 
recognize and celebrate their genius, sacrifices, and significance, 
here in our Nation's Capital.

    Senator Akaka. Thank you very much for your statement it 
will be included in the record.
    Senator Kennedy.

             STATEMENT OF HON. EDWARD M. KENNEDY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kennedy. Thank you very much, Mr. Chairman. I join 
Congressman Roemer in thanking you and thanking the committee 
for the consideration of this legislation. And let me thank 
this committee here. There are many committees that we know in 
this institution. We all know about the Finance Committee 
dealing with Medicare and Social Security; and the 
Appropriations Committee; and the Defense, Armed Service and 
Missile Defense and all the others. But in just these past few 
days, I have one again seen the magic of this committee in my 
own State--the Essex County Heritage Corridor which was 
approved. I was up over the period of the weekend. I visited 
Salem, Massachusetts where they had the Commissioning of the 
Friendship and saw the thousands and thousands of students that 
are out there involved in both the Heritage Corridor and the 
Friendship, Salem, Massachusetts, one of the national parks by 
President Roosevelt prior to the Second World War.
    And then I had the opportunity by boat to go back through 
the islands right off the coast where the only city in the 
world that has thirty-two islands, now they will be preserved; 
some for appropriate development, some for recreation, some for 
environmental preservation. That would be gone over time if 
that committee had not taken action on it. And then again just 
a week ago now in New Bedford, which has been designated a 
park, and what a difference that has made to this committee. 
The Blackstone Valley--I could go on, but the work that is done 
by this committee and its impact in terms of the quality of 
life of the people in our State has just been enormous and we 
are incredibly thankful to you, Mr. Chairman and the other 
members of this committee--Democrats and Republicans.
    It has made an enormous difference and now we are here in 
terms of the historic preservations here in Washington. Let me 
say first of all to pay tribute to Congressman Roemer. He has 
really been the driving force on this long before Dave 
McCullough finished his book. I think probably he was working 
on it when Dave McCullough started on his book. And I welcome 
the opportunity to work with the Congressman, but he has really 
been the spark and the force behind all of this legislation. 
But it is enormously needed.
    And let me just review very quickly. The Adams' family 
donated their home in an extraordinary act of generosity. So, 
here we have the local participation by the community itself 
wanting to help the preservation. And we have seen in recent 
times the preservation of their home, picked up in part by the 
State but helpful assistance by the Federal Government. This 
has been really an extraordinary act on their part of 
generosity.
    In terms their coming this issue, let me just reiterate 
quickly three things that John Adams did, which I found 
impressive, which Tim has referenced. First of all, he, more 
than anyone else, was responsible for Thomas Jefferson writing 
the Declaration of Independence. Two, he was the one that 
selected George Washington to be the Commander of the troops. 
And this was the first act of national reconciliation. Here you 
have a Southern general commanding primarily Northern forces at 
that time. It had incredible symbolism in terms of national 
unity at the beginning of the American Revolution. And thirdly, 
the appointment of John Marshall. He more than anyone, 
historians will tell you, the independence of the judiciary 
committee was really John Adams.
    I think beyond as President Kennedy wrote in his profiles 
of courage: ``John Adams at the height of the American 
Revolution defended the British soldiers that fired on American 
partisans.'' Read this book. See the emotion that was taking 
place at that time. The whole city could have burned down and 
he was willing to take this on. An extraordinary act, in spite 
of the fact of his absolute dedication to the independence 
movement. Extraordinary act of personal heroism.
    Abigail Adams, who is the principal writer about the 
colonial America, the Revolutionary War, and the early life of 
this country. There is nobody besides being probably the first 
woman suffragette as well as an abolitionist. Her writings are 
just the rarest, most penetrating, interesting collection of 
documents. And she--as Tim has pointed out--is an extraordinary 
figure. And then John Quincy Adams as a Senator from 
Massachusetts resigned rather than supporting the War of 1812. 
Eventually, he went back and rebuilt his political career but 
an extraordinary act of courage.
    So we have really the founding of just these extraordinary 
and these--as Tim has mentioned--this family continued for many 
years. This will be his place, his place should be recognized 
in the nation's capital that has recognized Washington, that 
has recognized Jefferson, that has recognized Madison but has 
left out John Adams. And we think that history, American 
history and its values--all the things that we care about in 
terms of the earliest life of this country, he has made such a 
contribution for and as the great philosophers say it isn't 
only a country that produces great individuals but a great 
country says something about the men and women it honors.
    We are asking this committee and this Senate to honor and 
by honoring, state what real values that we as Americans feel 
in terms of their contribution to the development and the 
continuing values of the country. I thank you.
    [The prepared statement of Senator Kennedy follows:]
      Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator 
                           From Massachusetts
    Thank you, Mr. Chairman, for this opportunity to express my support 
for legislation authorizing a memorial for John, Abigail, and John 
Quincy Adams in Washington, D.C. Senator Kerry and I strongly support 
this proposal, and all 10 Massachusetts Congressmen sponsored this bill 
in the House of Representatives.
    In Massachusetts, their importance is well-known, and we've taken 
significant steps over the years to preserve the Adams legacy. This 
preservation was possible in large part through the generosity of the 
Adams family, who gave the Adams' homes to the American people in 1946.
    Through his role in the nation's founding and his service as the 
first Vice-President and the second President, John Adams left an 
extraordinary and indelible mark on the country. But for too long, in 
the country as a whole, he has often been the Forgotten Founding 
Father.
    Historian David McCullough's current best-selling biography of 
Adams is now redressing that balance, and giving the whole nation an 
impressive lesson in Adams' importance to our history.
    John Adams' greatest action may well have been his indispensable 
role in July 1776, persuading the colonies to declare their freedom. 
Jefferson, himself, called Adams the ``colossus of independence.'' We 
might not have had a country without him.
    John Adams also had a profound role in shaping the Constitution, 
and the early development of our federal system of government. He laid 
the basis for the nation's independent judiciary by naming John 
Marshall to the Supreme Court. Adams was especially proud of the 
appointment of that great Chief Justice. As he later said, ``My gift of 
John Marshall to the people of the United States was the proudest act 
of my life.''
    Adams's wife, Abigail, and son, John Quincy, also should be part of 
this memorial. Abigail Adams was her husband's most trusted adviser and 
a strong supporter of women's rights and the abolitionist movement. Her 
letters recorded the daily events of colonial life, the tumultuous 
years of the American Revolutionary War, and the early years of the 
nation.
    John Adams' son, John Quincy, became President too, but he was 
renowned for his political courage long before that. In fact, President 
Kennedy chose him as a Profile in Courage for his actions as a 
Federalist Senator in supporting Jefferson's trade embargo and 
supporting Jefferson's Louisiana Purchase.
    For all these reasons and many more, John Adams, Abigail Adams, and 
John Quincy Adams eminently deserve a memorial in the nation's capital. 
Their extraordinary leadership and dedication to the cause of 
independence and the development of the United States helped make the 
nation what it is today. It is fitting that their place in history be 
honored here in Washington, D.C.

    Senator Akaka. Thank you very much for you statement.
    Senator Thomas.
    Senator Thomas. Just one clarification. This is done under 
the Commemorative Works Act which precludes the Federal 
Government paying for it, and yet it is my understanding that 
there has been money appropriated for it. Now, I don't quite 
understand that.
    Representative Roemer. Now certainly, Senator, the House 
side the legislation that we did pass by voice vote said that 
it was not only appropriate for us to honor this very 
distinguished family, but as I mentioned before we did it in a 
very bi-partisan way with a voice vote. In our legislation, on 
the House side, in addition to saying we needed to incorporate 
a foundation to raise money for this. It says in the 
legislation that there were not Federal funds.
    I can't speak to what the intentions of the Senate are. I 
am over here testifying. But the history of it are articulated 
there. This morning we passed a bill that authorized $10 
million to Senator Coverdell for him being commemorated as the 
new person--his name would be inscribed on the building for the 
Peace Corps with $10 million there. So, I think this 
legislation, these efforts are done in different ways, by 
different people and I am sure we see many different models of 
this through the years.
    Senator Thomas. Your bill and the House bill did not 
anticipate government funding.
    Representative Roemer. Our bill on the House, I did not 
request those funds. That is correct.
    Senator Kennedy. Can I just add, Senator, that the $1 
million was fairly in terms of trying to get to the program 
sort of started and run through the various procedures. As I 
understand it, historically each of the other monuments have 
had similar kinds of initial kinds of funding at this stage, 
and the support for it. And as Congressman Roemer indicated, he 
did not anticipate that there would be the funds. I think this 
legislation only has the funding for the start up and I think 
that we would at other times consult with this committee should 
we change direction.
    Senator Thomas. Thank you.
    Senator Akaka. Again, thank you very much.
    Senator Torricelli. Mr. Chairman can I ask Senator Kennedy 
and Congressman Roemer to remain for one moment. Were you 
planning on calling on me next? I have not actually been part 
of the legislation but wanted to say a word about it. I have 
actually thought about this for years and want to commend them 
for bringing this forward. It is actually extraordinary in the 
life of this country that there has never been a memorial to 
John Adams.
    It is really a mistake of history. In a Nation that has 
remembered and revered Thomas Jefferson, these two men had 
different visions of the future of America. And the Nation is 
largely a reflection of John Adams, not Thomas Jefferson. As 
Senator Kennedy noted, Thomas Jefferson only wrote the 
Declaration of Independence because John Adams asked him to do 
it. John Adams is the architect of the American Constitution. 
Thomas Jefferson played very little role. History may see them 
as twin giants, in fact they did not play a role of the same 
scale.
    I think this is tremendous legislation and my only hope 
would be that given to really do something befitting John Adams 
this simply cannot be another monument in Washington. This 
isn't another circle with a statue or a place to sit in the 
park. This has to be a monument as big as the man. This man 
genuinely, you could say a few figures in American history that 
the Nation would be fundamentally different if the man had not 
lived. I can think of few people you could say that about other 
than maybe Lincoln. You would say it about John Adams. I am 
very glad they brought this forward and hope the committee will 
take it seriously. I certainly want to be a part of it. This 
should have been done a hundred years ago. But that is not why 
I am here.
    Representative Roemer. Senator, if I could just respond in 
ten seconds. Certainly Congress is, I have had a discussion 
with Mr. Thomas on this, we don't determine where the monument 
will be nor what it will look like. The Commemorative Works Act 
of 1986 does. Mr. Parson who is in the room with us today will 
help us determine that. But with those nice words we would 
certainly like to put you on the Commission.
    [Laughter].
    Senator Kennedy. Thank you very much.
    Senator Akaka. Thank you very much. Senator, please 
proceed.

            STATEMENT OF HON. ROBERT G. TORRICELLI, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Torricelli. Thank you for allowing me to make those 
comments, Senator Thomas, Senator Hagel. I joined Congressman 
Pascrell today in support of H.R. 146, the Paterson Great Falls 
Historic Preservation bill. I have sponsored a similar bill in 
the Senate. I know, Mr. Chairman, it is not traditional to 
think of great urban centers as Paterson as a site for a unit 
of the National Park Service. But National Parks are more than 
just open space or areas of environmental importance. The 
National Park Service is meant to preserve our Nation's 
history. The Great Falls itself is a seventy-seven foot tall 
natural landmark, second largest waterfall by volume East of 
the Mississippi. But it is the Great Falls position as the 
birthplace of our Nation's first industrialized city that 
brings us here today.
    In the years after helping our country win its freedom from 
Great Britain, Alexander Hamilton--a third great figure in 
American independence--sought to establish U.S. economic 
independence by developing American commerce and manufacturing. 
Unlike Thomas Jefferson, who I have already attacked here today 
once, who had a vision of an agrarian based economy, Hamilton 
believed that economic independence would come from industry. 
He believed that industry could be powered by water and after 
designed a water power system in 1791, He set out to find a 
suitable location. He crossed the Hudson River in New Jersey, 
stopped at Great Falls and a year later founded what has become 
the city of Paterson.
    He built a laboratory and founded a Society for Useful 
Manufacturing. He formed this new community as a public/private 
partnership using the mighty Falls to power industry. While the 
new Falls provided the power, new immigrants provided the 
thriving work force. Together they helped Paterson become 
America's first industrialized city. It was, as Congressman 
Pascrell testified, a textile city from silk to cotton which 
fueled the growth of Paterson, making Paterson once known as 
the silk city of the world. The textile mills are still present 
throughout the city. Paterson is home to the largest example of 
early manufacturing plants in America. Remnants of the Water 
Power facility of the 18th, 19th and 20th century fueled 
Paterson industrialization and they can still be seen.
    Mr. Chairman, the Federal Government has already recognized 
the place of Paterson and the Great Falls in the rich history 
of the nation. The Great Falls have been on the National 
Register of Historic Places since 1970. In 1976, President Ford 
designated the area a national landmark. Today the National 
Park Service is authorized to provide technical assistance to 
the protection and restoration of the area. Our legislation 
seeks to begin the process to take the next step, which is to 
make the Great Falls a unit of the park system.
    Establishment as a unit of the Park Service is important 
for several reasons. Primarily, it will bring new resources to 
former Park Service personnel and funding, which provides 
staff, tours, enhances the visitor's center to help ensure the 
survival of the historic facilities. But also because our 
Nation's urban-industrial history is currently under-
represented by the National Park Service. There is currently 
only one urban-industrial site in the Northeast--Lowell, 
Massachusetts--the second industrial city in America--and I am 
glad I am presenting this after Senator Kennedy has left the 
room.
    These sites are necessary to tell the story of the growth 
of our Nation and the transformation of its economy from 
agrarian to industrial. Mr. Chairman and members of the 
Committee I hope will consider this designation. There are many 
things we should remember about our county. How it became an 
industrialized society, where American industry had its birth, 
how this enormous economy was conceived by Alexander Hamilton, 
created, built, transformed to be part of the history that is 
never lost.
    If we do not act it can be lost. A quarter of the Nation's 
population lives within a 4-hour-drive of Paterson, New Jersey. 
Every school child in America should have the opportunity to 
stand where Alexander Hamilton stood, see what was built, how 
American industry began, how the world largest economy was 
given birth. That is what we are asking. This designation gives 
us tour guides, potentially a Visitor's Center where indeed we 
can commemorate a $10 trillion economy was given birth with a 
single idea, a water wheel, a falls, and a plant. Thank you Mr. 
Chairman.
    Senator Akaka. Thank you very much for your statement. Any 
questions?
    Senator Thomas. No, thank you.
    Senator Akaka. Thank you very much for testifying before 
the committee. I would like to make a slight change to the 
hearing format this afternoon. Normally the administration 
witnesses are given courtesy of testifying first. Given the 
interest in Senator Hagel's bill to authorize the education 
center at the Vietnam Veterans Memorial, I think it might be 
useful to hear from all of the witnesses testifying on that 
issue in the same panel. Mr. Parsons has agreed to stay for the 
entire hearing to accommodate our format change. I would like 
to thank him for his cooperation.
    At this time I would like to ask all three witnesses 
testifying on S. 281 to take a seat at the witness table: Mr. 
John Parsons, Associate Regional Director for the National 
Capitol Region of the National Park Service testifying on 
behalf of the administration. Ms. Patricia Gallagher, the 
executive director of the National Capital Planning Commission; 
and Mr. Jan Scruggs, president of the Vietnam Veteran's 
Memorial Fund.
    Before we begin with this panel let me encourage you to 
please summarize your statements and keep your remarks to no 
more than 5 minutes. We have your written testimony and that 
will be included in its entirety in the hearing record. So, let 
me call on Mr. Parsons to proceed.

  STATEMENT OF JOHN G. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
    LANDS, RESOURCES AND PLANNING, NATIONAL CAPITAL REGION, 
                NATIONAL PARK SERVICE, ON S. 281

    Mr. Parsons. Thank you, Mr. Chairman and I will summarize 
my remarks as you suggested. The Department strongly supports 
the efforts to educate the public about the Vietnam War and 
about the men and women who bravely served our country in that 
war. But we have nine concerns with S. 281 as introduced, and I 
would like share those with you.
    First, we believe that the Vietnam Veterans Memorial is a 
work of civic art that is now complete. It is a memorial that 
generates an emotional response of the highest order; a design 
that has been heralded throughout the world. It has had 
numerous additions over time, as you may know: the statue of 
the three servicemen, the Vietnam Women's Memorial, the In 
Memory plaque that we are working on right now. And we believe 
that if we intrude on the Vietnam Veterans Memorial with 
anything else, especially of this scale, we will be diminishing 
the impact of the existing work.
    Second, as proposed--I have an exhibit over here that I 
would like to show you--as proposed at the moment, as we 
understand it, the structure would be seven times the size of 
the existing kiosk at the Memorial. We have depicted on this 
exhibit--and I think you have it before you in a smaller size--
what this would look like at the site of the existing kiosk.
    Third, we believe that memorials are meant to be 
provocative not educational. We have dealt with this at the 
Joint Task Force of the National Capital Planning Commission, 
the National Capital Memorial Commission, and the Commission of 
Fine Arts and have offered to articulate in a master plan for 
memorials, which is soon to be released, the thought of what 
memorials actually are. And we have come to the conclusion that 
educational facilities of the type suggested here are not 
appropriate in the context of landscape memorials, especially.
    Fourth, I would point out, the National Capital Memorial 
Commission at a public hearing on April 26, after receiving 
testimony, unanimously concluded that we should oppose this 
measure.
    Fifth, at various times similar proposals have been made 
for other memorials. The FDR Memorial, the World War II 
Memorial, the Martin Luther King, Jr. that we are working on 
now, as well as the Korean War Veterans Memorial--all of these 
have had proposals for the kind of educational facility 
proposed here for the Virtnam Veterans Memorial and through the 
process designated under the Commemorative Works Act, we have 
discouraged such facilities.
    Sixth, we are concerned, of course, that if this education 
center is authorized that you will be setting a precedent. 
People will return to you for more educational centers where we 
have previously discouraged them under the provisions of the 
Commemorative Works Act.
    Seventh, we believe that the National Military Museum, 
which is proposed in the Defense Department authorization for 
fiscal year 2000, is the solution here--to combine in one 
facility a museum that will deal in depth with all wars of all 
times that this country has engaged in. It would allow an 
opportunity for the story of the Vietnam War to be told in that 
context, in a more thorough manner.
    Ironically, the structure proposed by S. 281 is going to be 
too small, in our judgment, even though we believe it is too 
large. And what we mean by that is that we feel that because of 
the size of the visitation to the memorial, which is now four 
million annually, there simply would have to be a facility much 
larger than this to be effective. And we also feel it would 
have to be of a larger size in order to cover the subject 
matter at hand.
    Ninth, we are totally committed to education about this 
memorial. We have worked with Mr. Scruggs of the Vietnam 
Veterans Memorial Fund for years in their effort to reach out 
to schools all over the country with educational programs and 
advanced materials they have provided. We have developed a CD-
ROM and a book which describes all of the collections and the 
memorabilia that are left at the wall. We also feel that the 
three rangers that we have there, combined with the volunteers 
that assist us, provide the kind of information that is sought 
by this measure; that is to use the traditional method of park 
rangers serving the visitors on a one-to-one basis to provide 
the kind of information that enlightens them about the war as 
well as the Memorial itself. We have introduced wayside 
exhibits at the Memorial, which could thematically supplement 
information in the manner that is being suggested. So through 
that combination of materials on site, we believe that would be 
a better solution.
    Mr. Chairman, that concludes my statement. I would be glad 
to answer any questions.
    [The prepared statement of Mr. Parsons on S. 281 follows:]
  Prepared Statement of John G. Parsons, Associate Regional Director, 
Lands, Resources, and Planning, National Capital Region, National Park 
                           Service, on S. 281
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 281, which would authorize the 
Vietnam Veterans Memorial Fund to construct an education center at the 
Vietnam Veterans Memorial on the Mall.
    The Department strongly supports efforts to educate the public 
about the Vietnam War and about the men and women who bravely served 
our country in that war. However, we do have concerns with S. 281, as 
introduced. The structure that would be authorized by this legislation 
would detract from the visitors' experience to the Vietnam Veterans 
Memorial and the Lincoln Memorial, and would set an unwelcome precedent 
for other memorials on the National Mall. Instead, we believe that 
other more suitable alternatives to the proposed education center 
should be explored. We look forward to working with the Committee on 
fulfilling the goal of the legislation of providing educational 
information about the Vietnam War, but doing so in ways that would not 
detract from the Vietnam Veterans Memorial or visually impact the 
monumental core in our Nation's Capital.
    S. 281 would authorize the Vietnam Veterans Memorial Fund, Inc. to 
construct an education center for the purpose of educating people about 
the Vietnam Veterans Memorial. It would replace the small National Park 
Service information kiosk (168 square feet) currently at the site. The 
new structure would be a maximum of 1,200 square feet in size. The 
legislation specifies that the center would be erected for 10 years and 
reevaluated by Congress at the end of that period. The Vietnam Veterans 
Memorial Fund, Inc. would be responsible for paying for the cost of 
designing and constructing the center.
    The Vietnam Veterans Memorial generates a memorable emotional 
response from virtually all who visit it. Although not part of the 
original design, several elements have been added to the memorial, 
including the flagpole and the Three Servicemen statue. A separate 
Memorial to Women who Served in Vietnam was constructed in 1993, and 
the In Memory Plaque, to those veterans who died after the war as a 
direct result of their military service in Vietnam, was authorized last 
year. The Department believes that the Vietnam Veterans Memorial is 
complete and should not be subject to further additions. While we 
support the effort to provide the public with an opportunity to learn 
more about history of the Vietnam War, we believe that we risk 
diminishing the original work by adding adjunct structures to this 
site.
    The education center authorized by S. 281 would not simply be 
another design element added to the memorial. The proposed structure 
would be more than seven times the size of the existing information 
kiosk and would visually intrude on and detract from the memorial as 
the focal point of the visitor's experience. In addition, this proposal 
would violate concepts contained in the Master Plan for Memorials and 
Museums in the Nation's Capital, which is being developed by a joint 
task force of commissions, under the leadership of the National Capital 
Planning Commission. That plan precludes such facilities within Area I 
and has gone through a public review and comment period, where 
endorsement was urged. On April 26, 2001, the National Capital Memorial 
Commission recommended opposing the bill by a unanimous vote at its 
public meeting.
    Similar facilities have been disapproved or precluded at the 
Franklin Delano Roosevelt, World War II, and Martin Luther King, Jr. 
Memorials by the National Park Service, the National Capital Planning 
Commission and the Commission of Fine Arts because they would intrude 
on those works of landscape architecture. Each of these memorials 
represents a historical figure or time period important to our Nation. 
However, a determination was made that opportunities to educate the 
public further about these historical people and events could be 
accomplished in ways that would not detract from the memorials.
    Groups who support similar facilities at these and other memorials 
may be watching our action on S. 281 with great interest. If an 
education center were to be authorized for the Vietnam Veterans 
Memorial, similar proposals for the other war memorials would likely 
follow. Proponents of the education center express concern about 
visitors' lack of fundamental understanding of the Vietnam War, but the 
same could be said to be true for visitors to the Nation's Capital' 
memorials for the Revolutionary War, the Civil War, the Korean War, and 
the nearby District of Columbia World War I Memorial and the soon-to-
be-constructed World War II Memorial.
    One alternative to placing facilities at these memorials is to 
provide education about all of the wars that are part of our Nation's 
history in one museum. In fact, Congress has already begun the process 
of developing the kind of facility we believe would be appropriate for 
telling the story of our Vietnam veterans and the Vietnam War by 
establishing a Commission on the National Military Museum as part of 
the Department of Defense Authorization for Fiscal Year 2000 (P.L. 106-
65). The commission established by that law is charged with developing 
preliminary proposals for a national military museum in the National 
Capital Area. If the commission recommends establishing such a facility 
on Navy Annex property in Arlington, Virginia, the law further provides 
that the Secretary of Defense may make 10 acres of that property 
available for that purpose. Wherever the museum is located, it 
presumably would be easily accessible to those who visit the Vietnam 
Veterans Memorial as well as other war memorials on the Mall. Once the 
military museum is established, we envision coordinating with the 
Defense Department to ensure that visitors to the military memorials in 
the Nation's Capital that are managed by the National Park Service are 
encouraged to visit the museum to learn more about the history of the 
wars.
    Exploring other projects or sites also would allow us to find a 
location that is large enough to tell a more complete story of the 
Vietnam War. S. 281 proposes a 1,200-square-foot structure which may 
actually be too small for the purpose it is intended to serve. It is 
questionable whether it is possible to treat the Vietnam War with the 
range and depth that could be considered minimally appropriate in a 
structure of this size. It would be too small for the high volume of 
visitation at the memorial, which is approximately four million 
annually.
    The Department is firmly committed to educating the public about 
the Vietnam War and its impact on the history of our Nation. We have 
been involved in several types of educational programs. For nearly ten 
years, the Smithsonian has displayed an exhibit of the offerings left 
at the Vietnam Veterans Memorial and collected by National Park Service 
rangers. Other exhibits of offerings collected by the National Park 
Service have traveled to schools, universities, museums and veterans 
centers all over the world. In addition, the National Park Service has 
published a book and CD-ROM on the history of the memorial and the 
Vietnam War and runs a website designed to educate children about 
museum collections, including those associated with the Vietnam 
Veterans Memorial. The National Park Service has been involved in a 
number of news programs and television specials on the Vietnam Veterans 
Memorial and the history of the Vietnam War.
    The goal of S. 281 of educating the public about the Vietnam War is 
an admirable one, and one which the Department has and will continue to 
fully support. We strongly believe that this important goal can be 
accomplished in a different manner than prescribed by this legislation. 
We look forward to working with the Committee in exploring projects or 
sites that give us the best opportunity to tell the story of the 
Vietnam War and the men and women who served our Nation.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Akaka. Thank you very much for your statement. May 
I call upon Ms. Gallagher?

    STATEMENT OF PATRICIA E. GALLAGHER, EXECUTIVE DIRECTOR, 
        NATIONAL CAPITAL PLANNING COMMISSION, ON S. 281

    Ms. Gallagher. Mr. Chairman, thank you. members of the 
committee, my name is Patricia Gallagher and I am executive 
director of the National Capital Planning Commission. The 
Commission is responsible for preserving historic urban design 
and has made Washington one of the most admired capital cities 
in the world. I am honored to have this opportunity to express 
the Commission's views regarding the proposed Education Center 
of the Vietnam Veterans Memorial on the Mall.
    The Commission supports the establishment of an education 
program to inform the millions of visitors to Washington, 
including thousands of school aged children eager to learn 
about the complex history of the Vietnam conflict and the 
Vietnam Veterans Memorial. However, the Commission is concerned 
that locating an Education Center in the open space between the 
Lincoln and the Vietnam Veterans Memorial could detract from 
the visitors' experience at these memorials.
    It would also set the precedent for establishing additional 
Education Centers at other memorials across the Mall. In order 
to preserve the historic open space of the National Mall, this 
Commission along with the Commission on Fine Arts and the 
National Capital Memorials Commission in January of 2000 
adopted a Commemorative Zone Policy that establishes a Reserve 
in the central cross axis of the Mall and states that in this 
Reserve we will approve no new memorials. In establishing this 
policy, the Commission noted that ``the Reserve was a unique 
national space, which embodies our democratic ideals, 
achievements and which must be preserved as an indispensable, 
national significant, cultural resource.''
    The Senate last year demonstrated its support of this 
policy passing legislation to protect the Reserve as a matter 
of law. Although not proposing a new memorial, S. 281 would 
authorize the construction of an additional element to an 
existing memorial within the Reserve and by this act would 
undermine the intent of the Reserve policy.
    The size of the structure, as stated by Mr. Parsons, will 
be seven times the size of the National Park Service's Ranger 
Station located at the Memorial. We believe again, as Mr. 
Parsons said, that this site--that this center--is too large 
for the Mall-sensitive landscape, but at the same time too 
small to tell the conflict story of the Vietnam War to its 
millions of visitors.
    Since 1991, the Commission has been consistent in 
expressing its objections to additions to the Vietnam Veterans 
Memorial, which we believe succeeds in evoking a powerful, 
emotional response precisely because of its simplicity. 
Moreover, the Commission is concerned about the precedent that 
would be set if the Center is permitted at this location. 
Congress may soon find itself under increasing pressure to 
permit similar Education Centers at other memorials throughout 
the monumental core.
    The Commission suggests that there are other ways to 
provide visitors to this and other memorials with an Education 
Center that would not diminish the historical landscape of the 
monumental core, and we would be happy to work with the 
committee to insist in finding suitable alternatives that are 
within close proximity to the Memorial.
    In closing, Mr. Chairman, I appreciate this opportunity to 
appear before you today and would be happy to answer any 
questions you may have.
    Senator Akaka. Thank you for your statement.
    Mr. Scruggs.

   STATEMENT OF JAN CRAIG SCRUGGS, PRESIDENT OF THE VIETNAM 
                     VETERANS MEMORIAL FUND

    Mr. Scruggs. Thank you, Mr. Chairman. I am very honored to 
be here today to represent the Vietnam Veterans Memorial Fund. 
I actually last testified for the subcommittee 2 decades ago, 
20 years ago, on what was then the controversial idea of 
placing the National Vietnam Veterans Memorial in Constitution 
Garden. But with your help, the legislation was passed and most 
of us here would agree that the Vietnam Memorial has been a 
great success.
    I have returned today to merely request permission to 
expand the currently existing kiosk on the site of the Vietnam 
Veterans Memorial. The new Education Center will transform the 
Vietnam Veterans Memorial into a more profound learning 
experience for America's youth with a self-guided tour and 
photographs of those who are on the wall, and these will engage 
them. They will be memorable displays of historic events, which 
have taken place at the most visited memorial in Washington. 
Young people will gain an understanding of the Memorial that is 
now older than they are, Mr. Chairman.
    Further, the Education Center will help them gain a better 
appreciation for the visits to other memorials in Washington; 
all of which honor service to our great Nation, a service which 
has kept our country free. The visitors will have the 
opportunity to read written remembrances and reactions to the 
wall that will ultimately serve as a very important, historic 
archive with contemporary American culture. Computer terminals 
will also be on hand allowing for searches for names on the 
wall based on States and cities.
    Last year, the subcommittee approved legislation 
authorizing the ``In Memory Plaque'' on the site of the 
Memorial, honoring veterans who died as a result of service in 
Vietnam. We are actually making very good progress with that 
plaque. We will design, announce a design, in the relatively 
near future, probably September. The kiosk will also allow 
other groups in the future who will be demanding separate 
plaques because this indeed will be a magnificent architectural 
achievement when we are complete with it; an opportunity to be 
honored in the actual kiosk through rotating exhibits or 
perhaps even a Wall of Honor. These rotating exhibits can 
actually highlight the groups, the sacrifices of groups such as 
the Dog Handlers and others who feel the need to be 
memorialized.
    So it is far better to honor these groups in this kiosk 
then to continue making further permanent alterations to the 
Memorial area. The arguments against the Center, which have 
been entered into the record by the two previous witnesses, 
interestingly have already been addressed. Exhibit A of your 
testimony which includes a letter sent to John Parsons on the 
16th of July actually addresses all of these issues. 
Appropriate documentation has been provided. Exhibit A is 
attached to my testimony.
    Actually the Secretary of the Interior had two concerns 
which I considered relatively minor. I am happy to address them 
at this time. She is concerned that the Center will interfere 
with the lines of sight to the Lincoln Memorial. But with 
proper landscaping and design and such interference will be 
minimal. The major interference with the sight lines to the 
Lincoln Memorial is actually the large oak tree. The site lines 
in question are truly a major concern to the Interior 
Department that these trees could be removed. That is a step 
that I would certainly never support. The minimal interference 
that the center would introduce--and I don't think that 
interference is the right word--for this will indeed enhance 
the Memorial and the experience for visitors.
    This would be a very small price to pay for the benefits to 
America's youth. We will work with the Secretary of the 
Interior to develop the proper landscaping, the appropriate 
siting for this very low roof structure. Ironically a number of 
structures near the Lincoln Memorial, including a trailer 
selling sodas to tourists, are major eyesores that interfere 
considerably with the lines of site to the Lincoln Memorial.
    In your possession, Mr. Chairman and members of the 
committee, is exhibit B which actually shows the trailer's 
approximately--I walked it off--approximately 4000 square feet 
in the site line of the Lincoln Memorial sits this 
extraordinary trailer. And on exhibit B there are other 
structures as well as the Vietnam Veterans Memorial, which we 
understand can really never be removed. They have been there 
for 10 years. These are First Amendment demonstrators protected 
by the First Amendment.
    The point is that when we discuss precedent here, there is 
plenty of precedent for bad architecture basically on the 
grounds of the Lincoln Memorial. We are providing, Mr. 
Chairman, good architecture as we reach out to teach about the 
Wall and to teach America's history to America's youth. The 
proposed site for the Center has a clearing surrounded by 
trees. The design of the Center itself greatly improves upon 
the existing kiosk as is evidenced by the unique shape of the 
Center, which will adapt with the site harmoniously. Further 
the site can be removed after a period of ten years should 
visitorship or interest in the wall diminish.
    It would be a truly momentous decision here today if this 
bill were to irrevocably and unalterably alter the nation's 
Mall. We are not doing that. This legislation does not do that. 
None of us, Senator Hagel and others involved, would do that.
    Twenty years ago, I testified in a slightly different 
format, but the Secretary has voiced her concern that the size 
of the center is too big. 1,200 square feet is hardly a big 
structure. It is appropriate to allow for computers, the others 
uses, the Ranger station, some exhibits on the wall such as 
photographs of those whose names are engraved, as opposed to 
the current kiosk which really does nothing to help educate the 
public.
    One of America's most prominent and respected journalists, 
Don Oberdorfer of the Tet, says of the idea, ``The idea of a 
new Education Center is an excellent one. Get it up and running 
as soon as possible.'' A local high school teacher, Jim 
Percocco, says it will not only serve as a valuable resource to 
journalists and historians, but as a tool to teach young people 
about the Vietnam war. The Veterans of Foreign Wars, with 
nearly 2 million members, joined with many other veterans 
groups in the exhibits to experience, help young people 
experience the Center. I have entered into the record letters 
of endorsement from many different veterans groups. I won't 
mention them all right now, but it includes the Medal of Honor 
Society, the Disabled American Veterans and others.
    But this includes other respected advocates for American's 
veterans, as well, and prominent, thoughtful Americans whose 
opinions should be given due respect: Stanley Karnow, winner of 
the Pulitzer Prize; General Barry McCaffrey, the former drug 
czar under President Clinton; Lieutenant General Trolls Dyke, 
Alaska Governor; Tony Knowles, Lieutenant Governor of 
California; Governor Tom Ridge of Pennsylvania; former Vice 
President Al Gore and many others including the recently 
retired spokesman for the National Park Service.
    Senator Akaka. Mr. Scruggs, can you please summarize? We 
have a vote in progress.
    Mr. Scruggs. Okay. To summarize, we have for you some 
educational materials. My concluding summary would be that I 
just hope that no one forgets the profound importance of 
today's hearing. We really must reach out to America's youth 
and engage them from a place where they can be visually and 
emotionally engaged; not miles away at a museum but here at the 
Vietnam Veterans Memorial. This will go a long way towards that 
goal; that goal that veterans groups, educators, journalists 
and the American public strongly supports. Thank you very much.
    Senator Akaka. Thank you very much. We have a 15-minute 
vote in progress. We will take 15 minutes and we will be back. 
We will be in recess.
    [Recess.]
    Senator Akaka. The committee will come to order. I thank 
our witnesses for their statements and the committee will be 
ready with questions. We will do rounds of questions with 5 
minutes for each member and I will begin.
    Mr. Parsons, the bill directs the Vietnam Veterans Memorial 
to construct the Education Center. The bill is silent on who 
would manage it. If the legislation is enacted what is your 
understanding on who would administer or manage the Center?
    Mr. Parsons. It is my understanding that the National Park 
Service would manage it. Of course, we would do that in 
cooperation with the fund and the use of volunteers as well as 
Park Service rangers.
    Senator Akaka. Just in case there is a difference, Mr. 
Scruggs, do you agree?
    Mr. Scruggs. Yes, yes Mr. Chairman. We have been working in 
partnership for over 2 decades.
    Senator Akaka. The bill describes the Education Center as a 
temporary facility, but is unclear what would happen at the end 
of the 10-year period. If Congress takes no further action at 
the end of that period, what would happen to that Center, Mr. 
Parsons?
    Mr. Parsons. It would appear that the decision that is 
called for in the bill, the decision is that of the Congress. 
If the Congress did not act, I assume we would continue to 
operate it.
    Senator Akaka. These questions are for both Mr. Parsons and 
Ms. Gallagher. The bill requires that the design and placement 
of this Center be subject to the Commemorative Works Act. What 
is your understanding of what that language means with respect 
to each of your organizations?
    Mr. Parsons. Well, what that provides for is three 
approvals--the Secretary of the Interior, the Commission of 
Fine Arts and the National Capital Planning Commission. It is 
not the best out of three. It is all three. So each one has a 
veto over the other. In other words, if one disapproves it, it 
won't be built.
    Senator Akaka. Ms. Gallagher.
    Ms. Gallagher. I concur with Mr. Parsons.
    Senator Akaka. Is it possible to build a Center in a 
different part of the Vietnam Memorial grounds? Would the Park 
Service or the NCPC have a different view if it was built by 
the east end of the Memorial instead of replacing the kiosk 
near the Lincoln Memorial? Are there any other locations in the 
vicinity of the Vietnam Memorial that might work?
    Mr. Parsons. Programmatically, we don't think so. 
Aesthetically it could happen. I think it would have to be 
underground, but I think there are locations toward the east 
end where it could work.
    Ms. Gallagher. I would simply restate the position of the 
National Capital Planning Commission since 1991. They have 
expressed no additions to the Vietnam Veterans Memorial. 
However, we do believe that there are other opportunities for 
permanent exhibits at places such as the National Museum of 
American History. Mr. Parsons did mention the proposal for the 
National Military Museum. So, we believe there are other venues 
that could serve this purpose very, very well, but would not be 
perceived as additions to the Memorial that would visible on 
the Mall site; other nearby locations, which would accommodate 
the appropriate size to handle the information that is 
necessary to truly tell the story.
    Senator Akaka. I have a question for the panel. We have 
heard from the National Park Service that this bill will set a 
precedent because proponents of other memorials may seek to 
have their own Education Center. Mr. Scruggs, on the other 
hand, has stated that other memorials already have similar 
facilities, including the Lincoln, Jefferson and FDR memorials 
and that there is a compelling need to provide an Education 
Center at the Vietnam Memorial. I was hoping you could 
elaborate on whether there was convincing rationale that this 
Center should be allowed or whether it is likely to be a 
precedent for other memorials. Let me start with Mr. Parsons.
    Mr. Parsons. Well there are a number of points there. Let 
me respond in this fashion. The Lincoln and the Jefferson 
Memorials are clearly architecture and have within them a 
modest space to provide an information facility in them. The 
FDR Memorial contains a small bookstore in combination with 
restroom facilities. It does not have an Education Center as I 
would call it. Also proposed is a below-grade facility at the 
Washington Monument for our public who are awaiting the 
opportunity to go up the Washington Monument.
    But the landscape solution memorials--the World War II 
Memorial, the Korean War Veterans Memorial, and this one--
indeed are landscape solutions, which never contemplated 
architectural components. And therefore any such addition is 
incongruous as we see it.
    Senator Akaka. Ms. Gallagher.
    Ms. Gallagher. As I stated in my testimony, I think this 
would set a precedent and requests time and time again that are 
especially problematic with these landscape solutions. Mr. 
Parsons mentioned the Korean War Veterans Memorial. There is 
also the Ulysses Grant Civil War Memorial, the Martin Luther 
King Memorial that is now on the drawing board. All these 
future memorials and some existing may come back and ask for 
these similar Education Centers.
    I think as our Mall becomes more and more crowded with more 
memorials we have to be creative and think very carefully about 
how we address the very important educational components that 
these memorials call for.
    Senator Akaka. Thank you. Mr. Scruggs.
    Mr. Scruggs. I am happy to respond to this as well. I would 
like to point out the very specific nature and quality of the 
site of the Vietnam Veterans Memorial. It is truly at the end 
of the Wall as the photographs and exhibits show it is heavily 
treed with large oak trees and would provide excellent cover 
for this which is consistent with the landscape solution. Other 
monuments--suppose someone were to say, oh, we need an 
Education Center building outside of the let's say the 
Washington Monument. Well, clearly it wouldn't fit there. We 
have basically a corner in which this memorial can be fit and 
it really will be a great memorial.
    It was also pointed out that the Lincoln and Jefferson 
Memorial have a visitor center, but of course the FDR Memorial 
only has a bookstore. Well there is a large bookstore but 
inside the bookstore look what we have. Unlike the testimony 
you heard, and I submit this to the Senators for the record, 
the photographs and written material about the life of Franklin 
Delano Roosevelt and even a replica of Franklin Delano 
Roosevelt's wheelchair. The other memorials have Education 
Centers. We need the Education Center for America's youth. It 
really is a simple as that. And I realize the concern. They are 
legitimate but I think your job is much bigger than that.
    Senator Akaka. I have a question for the panel. The 
National Park Service--well, let me ask my friend Senator 
Thomas if he has any questions.
    Senator Thomas. Thank you. Ms. Gallagher, is there a vision 
for the finality of the Mall?
    Ms. Gallagher. We do have the Memorials and Museums Master 
Plan, which was released for public review in December of last 
year. That plan is being finalized. That plan establishes a 
Reserve policy and identifies other zones adjacent to the 
Reserve throughout the rest of the District of Colombia that 
have remarkable, wonderful sites for future memorials.
    We think the memorials should be distributed throughout the 
city in very special, permanent locations that could build upon 
the urban design qualities and the special character of 
Washington, DC while also honoring the important events and 
individuals in our history. So, we believe the Memorials and 
Museums Master Plan is a very responsible answer to the dilemma 
that we face in commemoration.
    Senator Thomas. How does the plan handle the six or seven 
pending memorials that are, I guess, supposed to be on the 
Mall?
    Ms. Gallagher. I know that Area 1, which is just adjacent 
to the Reserve, has eighteen sites--permanent sites for 
memorials. Of course to develop any memorial within that site 
would require an act of Congress. So, these are reserved for 
very special events and individuals in our history. And with 
the wisdom of Congress evaluating and weighing the 
commemorations that are being requested----
    Senator Thomas. They are not on the Mall?
    Ms. Gallagher. No they are not. The Planning and Review 
Commission has set up firm policy for the Reserve that no new 
memorials should be placed within the Reserve. But it goes a 
step further than that and identifies other very special, 
wonderful sites for future memorials.
    Senator Thomas. Mr. Parsons, what is the status of the 
National Military Museum in Arlington?
    Mr. Parsons. It was given to the Secretary of Defense to 
establish a commission. He has not done that yet. It is an 
eleven-member panel, and as I understand it, it requires 
Presidential Appointees and appointees by the congressional 
leadership.
    Senator Thomas. What is the purpose of that museum?
    Mr. Parsons. It is to commemorate all wars and it has been 
given a site of ten acres in Arlington directly behind the 
Pentagon. But the commission is not restricted to that site. 
They can select a site somewhere else in Washington. But the 
intent of the bill was to allow ten acres of what is called the 
Navy Annex to be used for that purpose in the future.
    Senator Thomas. What are those kiosks that are currently 
adjacent to the Korean and the Vietnam Memorial?
    Mr. Parsons. We call them kiosks. They have a sloped roof 
and we have used them since the 1960's at all of our major 
memorials in the Mall area for public information.
    Senator Thomas. What is the future and authority for--I 
don't know what you call them--the structures that are on the 
steps of the Memorial, the Lincoln Memorial.
    Mr. Parsons. We certainly hope they will disappear in 
time--as you may recall we had about twenty of those up until 
1995 when we implemented our new regulations. But the four that 
are there now are holding on. It has been suggested by some 
that legislation be passed to allow us to remove those. But at 
the current time they are there under a First Amendment permit. 
They apply for permits every twenty-one days. That is our 
regulation.
    Senator Thomas. The First Amendment doesn't give you a 
structure necessarily. It gives you the opportunity to be there 
and share your views.
    Mr. Parsons. Yes it does. And what has evolved over time 
are these structures. I am not proud of them. I am very 
uncomfortable with your line of questioning Senator. I am 
embarrassed to talk about them.
    Senator Thomas. Well, you know, Jan, this whole thing is 
tough to talk about because nobody is at all resistant to the 
idea of celebrating the Vietnam Veterans. But there is another 
issue. What is your view of the Mall? Do you think there is 
limitation? Do you think there comes a time when it is probably 
appropriate for no more structures to be added?
    Mr. Scruggs. I think we have addressed that, indeed in this 
legislation, through making this a temporary structure. The 
overall vision for the Mall, I truly would defer to the very 
able civil servants who are testifying to my left to put 
together the Master Memorial Plan for the Mall and respecting 
the unlimited number of ideas for memorials and the limited 
number of sites.
    Senator Thomas. You don't really believe that you build 
something and remove it in 10 years, do you?
    Mr. Scruggs. I believe it may not happen in 10 years, but I 
do not believe that it will be there in 20 or 25 years. There 
will come a time, much like the World War I memorial on the 
Mall, that very few people know it exists. But you go past it 
and it is pathetic. There are actually trees growing out of the 
top of it and shrubbery. No one goes to visit it. Nobody is 
interested in it anymore. Eventually visitorship will diminish.
    Senator Thomas. My time has expired. Let me just say that 
the twelve hundred foot thing doesn't seem very sufficient. 
Have you figured out a way to make that tell the story? The 
Park Service has all kinds of ways of conveying information. Is 
twelve hundred-foot sufficient? That is not very large.
    Mr. Scruggs. Senator, we have spoken to a number of 
consultants that will be part of the design process. This will 
not tell the entire convoluted story of the Vietnam War, which 
will indeed require a national military museum. This will tell 
the story of the memorial. It will engage young people with 
photographs and moving exhibits that the whole point is that 
when they are at the memorial unlike a museum miles and miles 
away. They are intellectually and emotionally engaged. The Wall 
that heals, which is what the Memorial is known as, will 
become, with your help, the Wall that educates.
    Senator Thomas. You believe that the Wall that heals is the 
purpose. Thank you.
    Senator Akaka. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Thank you to our 
witnesses today. We are grateful for your expertise. We 
appreciate your insights because we deal with something here 
that is very important to our country. I begin my questions 
with a remembrance and Mr. Scruggs mentioned this early on in 
his testimony that it was really 20 years ago--and I suspect 
you remember this, Mr. Parsons--when Mr. Scruggs couldn't get 
many people to pay attention to him. I was the incoming Deputy 
Administrator of the Veterans Administration at the time and 
had a very, very modest role to play in giving some assistance 
to Jan Scruggs.
    And I recall the same arguments 20 years ago that I am 
hearing today. We shouldn't have any kind of memorial to 
Vietnam on the Mall. Good reasons, good points, relevant to the 
responsibilities of the Commission and the Park Service. And I 
recall what Scruggs and others had to go through to break down 
not just the bureaucracy but the attitudes about the issue.
    Now I doubt if there are many people in this country 
including most in the Park Service who were opposed--pretty 
strongly opposed--to the monument being built on the Mall 20 
years ago that are now saying that it is not adding a great 
deal. I surely understand and appreciate the responsibilities 
that the two of you have about preserving the dignity of the 
Mall, this space, and the relevance of the openness, the views. 
All very appropriate. But I also go back to what Mr. Scruggs 
and his band of merry men and women envisioned 22 years ago. It 
seems that monuments should be relevant to our times. They 
should be there for a reason. And if we didn't factor that in, 
then we would have open spaces everywhere in Washington because 
we wouldn't want to break any of our views. We could go all the 
way to the river and maybe we should cut some trees down.
    There is a place for that of course. There is a reason we 
build monuments. And they are to obviously represent not one 
person. They are to represent the essence of who we are as a 
society and a people. So the argument that I hear about--well 
it is a visionary thing, we are setting a precedent; all very 
real and relevant, but I don't think any of those are good 
enough to turn a project down for those reasons alone.
    With that said, I would like to see if I can come back to 
some of the issues here that seem to be most contentious. Would 
this detract from the beauty that is there? And I am a little 
confused. I have been hearing a reference to adding a new 
memorial here. But what we are talking about here is, I don't 
believe, a memorial. We are talking an Education Center that 
connects the relevancy of one of the most defining times in the 
history of this country. Now that to me is pretty important. It 
has nothing to do with whether I served there or not. I would 
feel the same way. But I feel a little stronger about it. But 
this defined the Nation in many ways. The history will write 
about the definition of this and why for years and years to 
come.
    That in itself seems to me to generate enough defense of 
the ideas here that Mr. Scruggs and others are putting forward 
of trying to connect with happened from 1964 to 1975 that 
divided a nation, to the education of our young people. And I 
think that is pretty important. I think there is relevancy to 
the emotion and the connection of having that nearby that 
memorial. At it has been stated here the other memorials have 
education-type centers as well. I am not yet convinced that 
what they are talking about here detracts from any of the 
beauty or any of the site lines and I would like to see if we 
could go into that in a little more detail with each of you.
    I don't at all question the responsibilities, Ms. 
Gallagher, that you have or Mr. Parsons. They are important 
responsibilities and they should not be minimized. Although I 
did note in the New York Times yesterday that Mr. Parsons you 
referred to my idea as an atrocity. Obviously you were 
misquoted. But nonetheless--and that happens to me all the 
time--Mr. Parsons let's begin with you. Focus on the visual 
impairment and beauty and we take from the beauty and we really 
detract from the goodness that you all have brought about 
working together in a warm, friendly spirit, I know, for the 
last 20 years.
    Mr. Parsons. I see you have given this a great deal of 
thought. I agree with most everything you have said. We cannot 
afford to have a generation of Americans coming forward to this 
memorial which is, in my judgment, the most powerful in the 
world. It is not going to be forgotten. It is not going to be 
an element in the landscape that no one goes to in the next 20, 
25 years. It is a powerful message about war.
    There is just no doubt about it and I think our area of 
disagreement is relatively simple. We feel that the message 
that is being sought to be given here should be done with what 
we call wayside exhibits, which are panels--I am sure you have 
seen them in other national parks throughout the country--as 
opposed to architecture, and to augment that with rangers who 
can provide personal attention to those who need it. And it 
boils down to that simple an issue, I believe. The point of the 
atrocity, whether I used those words or not, is the location 
and the image that we are portraying over here on the easel 
stand. That is why my response to the chairman was that there 
will be some opportunity to do this underground elsewhere, 
although we would still object to it from the programmatic 
standpoint.
    I do want to take an opportunity to clarify something for 
the record because others have said what you have said here 
today--that I personally and others in the National Park 
Service, opposed this memorial on the Mall in 1979. I will take 
just a minute to explain the concept. We had just finished in 
1976 the Constitution Gardens, which this memorial now sits in. 
And one of the largest open spaces in Constitution Gardens was 
this field where it has been built. And the purpose of the 
Constitution Gardens originally--which has not been 
recognized--was that it would be a place of festival; a place 
where music festivals, art festivals, the Smithsonian Festivals 
for Folk Life were to be undertaken; a strolling English garden 
as opposed to the formal French Mall.
    And it was in that context that we were opposing the 
location in Constitution Gardens. It was not opposition to the 
memorial on the Mall, as has been said today, but it was 
specific opposition to building it in this fresh Constitution 
Gardens. And of course what has happened is with the location 
of that memorial and now the one of the Black Patriots, it is 
becoming more of a memorial garden, which is okay. But that is 
the reason that we were opposing it so vigorously in 1979. I 
hope that is responsive.
    Senator Hagel. Thank you.
    Ms. Gallagher. I would just like to clarify some of the 
points that you made earlier today and I believe Mr. Parsons, 
as well. We are not looking at this as the Vietnam Memorial 
versus the openness of the Mall. There is a larger issue that 
we would be arguing and concerned about regardless of what is 
proposed for the Vietnam Memorial. So, we are concerned about 
what is happening on the Mall and its development.
    But we also want to protect the integrity, the power, the 
impact of this memorial. This is a very effective memorial as 
it is developed right now, and there have been numerous 
proposals over the years to add to it, which we believe 
detracts from its effectiveness. On the other hand, we 
absolutely recognize the need to keep this story alive, to 
educate all the people, the children, everyone who comes to 
this memorial. We feel that that is going to require more than 
1200 square feet at this location.
    Senator Hagel. Thank you.
    Mr. Scruggs.
    Mr. Scruggs. All I can do is respond to doing what is 
right. As I look at the Mall, as I look at the vista of the 
Lincoln Memorial, I see the four thousand foot refreshment 
stand. I see these hideous structures obscuring the view of the 
Washington Monument.
    Senator Hagel. Would you pull the mike a little closer?
    Mr. Scruggs. And as I look at the Mall, I respond to the 
rather hideous refreshment stand which is in place next to the 
Lincoln Memorial, the rather hideous tents which have been in 
place for a period exceeding 10 years and for which there is 
absolutely no end in sight, nor is there an end envisioned. I 
look upon the architectural excellence that we provide and have 
provided and will provide for the Education Center and for the 
enormous opportunity for us to touch America's youth in the 
context for understanding not only the Vietnam Veterans 
Memorial but the other memorials as well in a manner consistent 
with the Lincoln, the Jefferson, the FDR Memorials.
    Senator Hagel. Let me ask, Ms. Gallagher and Mr. Parsons, 
is it then the size or the permanency of the structure? Why for 
example is the kiosk okay and an enhanced Education Center not 
okay? Or am I missing the point here?
    Mr. Parsons. The kiosk is purely an informational facility. 
You cannot enter it. It staffed by one or two people. You walk 
up to the window, you get information. That is the tradition of 
the kiosk in the National Park Service. This on the other hand 
is a place where groups would enter, see exhibitry, use 
computers and that kind of thing. So, it is a much different 
facility as we see it.
    Senator Hagel. So, based on that we should turn this down? 
Isn't it a different facility? It doesn't comply with the 
tradition of the Park Service? Regardless of how much good it 
might do or how much it might in fact enhance the area?
    Mr. Parsons. Well that and the other reasons we brought 
forward today, yes.
    Senator Hagel. Ms. Gallagher.
    Ms. Gallagher. I agree. I think there are other 
alternatives that should be pursued, as opposed to the proposal 
that we have before us that can meet the objectives of 
educating the public about this significant event.
    Senator Hagel. You mean like somewhere else?
    Ms. Gallagher. Somewhere else. Somewhere very near by. Now, 
as I stated, there is the Museum of American History. I believe 
the military museum that has been discussed--this is a new 
project. We need to engage this group and start looking at this 
very carefully. This is another alternative--a site yet to be 
determined.
    Senator Hagel. When you say ``engage this group'', what are 
you talking about?
    Ms. Gallagher. Well this new commission has yet to be 
established and I think we need to reach out to the leadership, 
the Defense Department and the leadership in this city and 
government to see where they were going and understand the 
potential of this museum. It seems it was a very good idea and 
its purpose is very well founded. And maybe here is where the 
story can be told in a larger way.
    Senator Hagel. You don't see much in the way of a strong 
argument as to the emotion connected to being there at that 
powerful, powerful memorial and learning at the same time and 
being a part of that experience. You don't think there is any 
disconnect if you took that education and learning and took 
that off-campus or somewhere else? You don't think you would 
lose anything in the translation? Or it wouldn't be as 
powerful?
    Ms. Gallagher. I think it is very powerful right now. I am 
not convinced that going to someplace nearby and learning more 
about this event at a location that is not right there--I am 
not convinced that that detracts from the learning experience.
    Senator Hagel. Mr. Scruggs, would you care to respond to 
any of this discussion?
    Mr. Scruggs. It seems readily obvious that when a person is 
intellectually and emotionally engaged in a subject--for 
example, when the person goes to the Jefferson Memorial--that 
is the time, that is the place when he or she will go to the 
Education Center there which has a very fantastic small center 
and get the information. The emotions involved in visiting the 
Vietnam Veterans Memorial are very different. Unfortunately 
they are becoming less and less relevant for America's youth. 
That is why we have to engage them and why we have to engage 
them there and not twelve miles away. And that is the purpose 
for this legislation.
    Senator Hagel. Let me ask a question based on your last 
response, Mr. Parsons. When I asked the question regarding the 
difficulty the Park Service has in comprehending this fitting 
into your responsibilities here. As you said, there were other 
reasons. One of the reasons--as I have heard from both of you--
is the precedent setting factor, which is certainly a factor. 
Everything we do in this town is precedent setting. This 
hearing is precedent setting. So, I have never really paid much 
attention to that because tomorrow is another day. There will 
be another group of wild-eyed Senators who actually think this 
might be a good idea, who will come in with another screwy idea 
like the one Jan Scruggs did 21 years ago; a very bizarre idea 
we had buy-in to that.
    So, we know that that will come tomorrow. It will come next 
year. And you are right, for every great man or woman there is, 
we will have a group of people. But listening to both of you 
today convinces me that we have in place a rather significant 
process to ensure that nothing gets through the net. If that 
wasn't the case, then we wouldn't be here today, would we? You 
wouldn't have a job, Ms. Gallagher, in the area you are in now 
if we didn't have commissions and planning commissions and the 
Congress and laws and acts that we must follow.
    So, it is not a matter--at least it seems to me and this is 
where I would welcome your comment--that we can just 
arbitrarily come up with these wild ideas and they get built. 
It is a pretty long, difficult road you go through getting this 
done. I am somewhat convinced that this is not only torturous 
but it is appropriate and that it is sufficient. You can't just 
come up with these ideas and get them done.
    So, the precedent setting argument of who knows who will be 
next and come in with another idea and want to build the 
statue, I fail to really find much power in that argument. Now, 
I would appreciate you both giving me your response to that 
because not only do we not see that the same way but see if you 
can convince me that this would put the entire Mall of 
beautiful monuments in danger because of the precedent we would 
set.
    Ms. Gallagher. I would like to just state that one of our 
missions with the National Capital Planning Commission is to 
protect what we have built. The Vietnam Memorial was a 
precedent setting event. It is a remarkable monument. We want 
to protect what we have created there, protect that experience, 
protect that expression. In addition, it is our job to protect 
the Mall as we contemplate future works of commemoration. That 
is our job, to protect the legacy of what we have created in 
this city. So, I am very proud to do my job. And I don't want 
to withhold creativity or break precedent, but when you are 
changing landscape that is very important to the entire 
country. I take that very seriously.
    Senator Hagel. Would you agree that the landscape design of 
the Vietnam Veterans Memorial was unprecedented?
    Ms. Gallagher. It certainly was. And it was very, very 
successful.
    Senator Hagel. So does that then lead you to the conclusion 
that unprecedented things occasionally might work.
    Ms. Gallagher. What I am trying to state is what we have 
there is very special and the Commission that I worked for over 
the past decade has repeatedly reviewed this very seriously, 
carefully. They have look at other suggestions to make 
additions to this memorial and they feel very strongly that it 
should not be altered; that what is there is precious and 
important. They also agree and I agree with them that the 
education, the story of Vietnam is a very special one and we 
just disagree on how that story should be told and where it 
should be told.
    Senator Hagel. Do you think your evaluation of the Vietnam 
Veterans Memorial is something more precious than Jan Scruggs 
evaluation?
    Ms. Gallagher. It is just very different. We represent 
different interests.
    Senator Hagel. Thank you.
    Mr. Parsons.
    Mr. Parsons. On the issue of precedence, I guess the 
significance of what we are doing today is that the Congress is 
entering into the design process. In 1986, Congress determined 
that they didn't want to be involved in the location and the 
design of memorials and they delegated that down as we 
described earlier today. So, the example that I am going to 
give you of what has happened as a result of that is probably 
most spectacularly described in the World War II Memorial 
incident. Initially, that was proposed to have a 100,000-
square-foot visitor center compared to 1,200 here. The 
Commemorative Works Act process--that is, the approval process 
of the Commission of Fine Arts, the Planning Commission and 
ourselves--disapproved that. That doesn't mean there still 
isn't a desire to tell the story of World War II on the site 
and that is what I am trying to emphasize.
    I should also point out the FDR Memorial. There was a 
proposal for a 50,000-square-foot visitor center with 
memorabilia from FDR's time, with film footage of him in a 
theater, and that was disapproved by this process. So, here now 
is the Congress coming in on a very specific design issue in a 
memorial and saying we feel this way about it. So, from a 
precedent standpoint, I see others who didn't get what they 
wanted from the Commemorative Works Act process coming back to 
the Congress saying let's allow the Congress to come in and 
intrude into the design process, and that is the major 
difference in precedent.
    Senator Hagel. I can understand it. And I am not going to 
belabor this. The chairman probably wants to move on. But I 
would just respond by saying I didn't fail to note your comment 
on the World War II example to tell the story on the site, on 
this site. Now, I would be perfectly willing to have you design 
an education center on this site, as you have suggested, World 
War II on this site. I suspect that won't happen. Mr. Scruggs 
would you like to finish this off? And then I will turn it back 
to the chairman.
    Mr. Scruggs. I just want to really begin by thanking the 
entire committee. I know it is going to be a busy day for each 
and every one of you. And as you begin your deliberations on 
this matter, I can only discuss the words of Mr. Rob Portman, a 
sixth grade student, Mr. Chairman, from the Sharonville 
Elementary School. And he says: ``I wanted to say that I think 
you should support the Vietnam Veterans Education Center. I 
think this because it will help other children, including me, 
to learn more about the Vietnam War and let the world know that 
those who served are not forgotten.''
    Mr. Chairman, I ask that in your deliberations that you 
consider the words of this sixth grader and many prominent 
Americans which have thought long and hard about this long over 
due Education Center. It should have been built 20 years ago. 
Thank you.
    Senator Akaka. Thank you.
    Senator Hagel. Mr. Chairman, let me just again thank our 
witnesses. I appreciate very much all three witnesses being 
here and sharing their thoughts. Thank you Mr. Chairman.
    Senator Akaka. Thank you. Well, Mr. Scruggs, thank you for 
being here this afternoon. And we will go on now to the next 
bill. Thank you very much.
    The next bill we will hear testimony on is H.R. 1668, which 
would authorize the construction of the Adams Memorial. I 
believe both Mr. Parsons and Ms. Gallagher have statements on 
this bill. Mr. Parsons, please proceed.

  STATEMENT OF JOHN G. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
    LANDS, RESOURCES AND PLANNING, NATIONAL CAPITAL REGION, 
              NATIONAL PARK SERVICE, ON H.R. 1668

    Mr. Parsons. Thank you, Mr. Chairman. Again, I will 
summarize my remarks, certainly given the hour of the day. This 
measure would authorize the Adams Memorial Foundation to 
establish a memorial in the District of Colombia and its 
environs to honor former President John Adams, along with his 
wife Abigail Adams and his son former President John Quincy 
Adams.
    The Department supports the enactment of H.R. 1668 as 
amended and passed by the House of Representatives on June 25. 
This position is consistent with the recommendation of the 
National Capital Memorial Commission, which endorsed the 
proposed legislation by unanimous vote on April 26.
    H.R. 1668 authorizes the establishment of the Adams 
Memorial in accordance with the Commemorative Works Act. The 
Act established a process under which, following authorization 
of the subject matter by Congress, the Secretary of the 
Interior submits a plan for the site and design of the memorial 
for approval by the National Capital Planning Commission and 
the Commission of Fine Arts. The bill also provides that no 
Federal funds shall be used to pay any expense of the 
establishment of the commemorative work.
    We would note that one of the three Library of Congress 
buildings here is named after John Quincy Adams, but otherwise 
there is no major public work in the District of Colombia that 
recognizes or memorializes John Adams or John Quincy Adams and 
their legacy.
    We agree with the sponsors of this bill that the father and 
son Presidents and their family's legacy of public service 
deserve a memorial in the Nation's Capital. The Adams Memorial 
Foundation has not yet proposed a site for the memorial, nor 
have there been any decisions made by the National Capital 
Memorial Commission, the Commission of Fine Arts or the 
National Capital Planning Commission other than endorsement of 
this measure.
    However, because the three Commissions have established 
policies against siting any more memorials in the Reserve area 
that represents the Mall to the east and west, and the White 
House to the Jefferson Memorial in the north and south, this 
memorial would not be located there, in our estimation. Instead 
the recommended site would more likely be one of the hundred 
sites that have been identified by the Master Plan Ms. 
Gallagher described earlier.
    That concludes my statement and I would be glad to answer 
any questions you may have.
    [The prepared statement of John Parsons on H.R. 1668 
follows:]
  Prepared Statement of John G. Parsons, Associate Regional Director, 
Lands, Resources, and Planning, National Capital Region, National Park 
                         Service, on H.R. 1668
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1668, which would authorize 
the Adams Memorial Foundation to establish a memorial in the District 
of Columbia and its environs to honor former President John Adams, 
along with his wife Abigail Adams and his son, former President John 
Quincy Adams, and the family's legacy of public service.
    The Department supports enactment of H.R. 1668 as amended and 
passed by the House of Representatives on June 25, 2001. This position 
is consistent with the recommendation of the National Capital Memorial 
Commission, which endorsed the proposed legislation by a unanimous vote 
on April 26, 2001.
    H.R. 1668 authorizes the establishment of the Adams memorial in 
accordance with the Commemorative Works Act of 1986. The Act 
established a process under which, following authorization of the 
subject matter by Congress, the Secretary of the Interior submits a 
plan for the site and design of the memorial for approval by the 
National Capital Planning Commission and the Commission of Fine Arts.
    The bill also provides that no Federal funds shall be used to pay 
any expense of the establishment of the commemorative work. The Adams 
Memorial Foundation would be responsible for not only the cost of 
construction of the memorial, but also for establishing a fund in the 
Treasury equal to ten percent of the cost of construction for 
catastrophic maintenance and preservation, as provided for in Section 
8(b) of the Commemorative Works Act.
    A memorial to John Adams, Abigail Adams, and John Quincy Adams in 
the Nation's Capital would be quite appropriate. As one of the findings 
in H.R. 1668 states, ``Few families have contributed as profoundly to 
the United States as the family that gave the Nation its second 
president, John Adams; its sixth president, John Quincy Adams; first 
ladies Abigail Smith Adams and Louisa Catherine Johnson Adams; and 
succeeding generations of statesmen, diplomats, advocates, and 
authors.'' One of the three Library of Congress buildings is named 
after John Quincy Adams but, otherwise, there is no major public work 
in the District of Columbia that recognizes or memorializes John Adams 
or John Quincy Adams. We agree with the sponsors of this bill that 
these father-and-son presidents and their family's legacy of public 
service deserve a memorial in Washington.
    As noted above, this legislation simply authorizes the process for 
developing an Adams memorial to move forward. The Adams Memorial 
Foundation has not yet proposed a design or site for the memorial, nor 
have there been any decisions made by the National Capital Memorial 
Commission, the Commission of Fine Arts, or the National Capital 
Planning Commission other than endorsement of H.R. 1668 by the National 
Capital Memorial Commission. However, because the three commissions 
have established policies against siting any more memorials in the 
``reserve,'' the area that represents the Mall east to west and the 
White House to the Jefferson Memorial north to south, the memorial 
would not be located there. Instead, the recommended site would likely 
be one of the 100 sites that have been identified in a master plan for 
memorials and museums in the District of Columbia and its environs by 
the three commissions as sites that are appropriate for new memorials.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Akaka. Thank you for your statement. Ms. Gallagher.

    STATEMENT OF PATRICIA E. GALLAGHER, EXECUTIVE DIRECTOR, 
       NATIONAL CAPITAL PLANNING COMMISSION, ON H.R. 1668

    Ms. Gallagher. Thank you, Mr. Chairman. I just want to 
state that our Commission recognizes the legacy and the 
remarkable contributions of the Adams family that were so 
beautifully recalled earlier this afternoon by Congressman 
Roemer and Senator Kennedy and Senator Torricelli.
    The Commission is particularly pleased to support this 
proposal because it is one of the first memorials whose 
location and development will be guided by our Memorials and 
Museum Master Plan. The Master Plan establishes a reserve as I 
spoke of earlier and also Area 1 immediately adjacent to the 
Reserve which is a sensitive zone designated for memorials of 
preeminent, historical national significance. Area 2 reflects 
the rest of the city.
    As Mr. Parson stated, this Master Plan identified one 
hundred sites for new memorials and museums. It provides 
guidelines on how these facilities should be developed. This 
Plan will serve as a tool for reaching public consensus on the 
locations in the capital that are appropriate public spaces 
which offer memorial-sponsor suitable locations for their 
projects. And importantly this Plan will ensure that future 
generations of Americans have sufficient supply of desirable 
sites for their own commemorative and cultural needs.
    We believe that with the help of this Master Plan, the 
Adams Memorial Foundation will be able to identify several 
highly desirable sites for its project and we look forward to 
working with the Foundation to identify the most appropriate 
location of beauty and significance for this memorial, and to 
approve a design for this remarkable family.
    We believe that the Memorials and Museum Master Plan offers 
will guide the creation of a new landscape of commemoration in 
the Capital and that this memorial will permit us to 
demonstrate that we can pay tribute to our national history in 
a way that makes us all proud.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Gallagher on H.R. 1668 
follows:]
   Prepared Statement of Patricia E. Gallagher, Executive Director, 
           National Capital Planning Commission, on H.R. 1668
    Mr. Chairman, thank you for this opportunity to speak on behalf of 
the National Capital Planning Commission regarding the proposal to 
construct a memorial honoring former President John Adams; his wife, 
Abigail; and his son and former President, John Quincy Adams. The 
Commission recognizes the enduring legacy and remarkable contributions 
the Adams family made to the social and political life of our nation. 
Commemorating John Adams and his family's life and work in our Nation's 
Capital is a fitting and appropriate tribute.
    The Commission is particularly pleased to support this proposal 
because this is among the first memorials whose location and 
development will be guided by the new Memorials and Museums Master 
Plan. The Commission developed the master plan in cooperation with the 
Commission of Fine Arts and the National Capital Memorial Commission 
and released it in draft form several months ago. The plan is the 
result of a two-year collaborative effort to preserve the historic open 
space of Washington's Monumental Core while identifying sites for new 
cultural and commemorative facilities.
    A key feature of the master plan is a Commemorative Zone Policy 
that establishes a Reserve in the central cross-axis of the Mall in 
which the three commissions have agreed to approve no new memorial 
sites. The area immediately adjacent--Area I--is a sensitive area 
designated for memorials of preeminent and historic national 
significance. Finally, the Commemorative Zone Policy delineates an Area 
II that encompasses the rest of the city and where the review agencies 
will encourage development of future commemorative works: The plan 
integrates key natural features--rivers, ridges, overlooks--with the 
avenues, parks and squares created by Pierre L'Enfant and subsequent 
planning. Although it builds on these earlier plans, it also introduces 
new elements that strengthen Washington's symbolic and commemorative 
character.
    The master plan identifies approximately 100 sites for new museums 
and memorials and provides general guidelines for how these facilities 
should be developed. The plan seeks to reach public consensus on 
locations in the National Capital that are appropriate for these 
important public spaces and offers memorial sponsors suitable locations 
for their projects. The plan is also intended to ensure that future 
generations of Americans have a sufficient supply of desirable sites 
for their own commemorative and cultural needs. For your information, 
we have provided maps of the Commemorative Zone Policy and the proposed 
master plan sites.
    In preparing the master plan, we have consulted with a team of 
nationally recognized planning and design professionals and with the 
District of Columbia government and local and community and 
professional groups. Released in draft form for public comment this 
past December, the plan has enjoyed broad public acceptance. Benjamin 
Forgey, the Architecture Critic of the Washington Post has called the 
plan ``a brilliant piece of work.'' The Washington Chapter of the 
American Institute of Architects has applauded the plan, and the 
Virginia Chapter of the American Planning Association has recognized it 
with its highest award. We are now incorporating the comments we 
received from the public and expect to release the final version in 
September.
    The Commission believes that with the help of the master plan, the 
Adams Memorial Foundation will be able to identify several highly 
desirable possible locations for its project. We look forward to 
working with the Adams Memorial Foundation to identify a location of 
beauty and significance and to approve a design that is worthy of this 
remarkable family. We believe that the Memorials and Museums Master 
Plan offers a new landscape of commemoration in the Nation's Capital 
and that this memorial will permit us to demonstrate that we can pay 
tribute to our national history in a way that makes us all proud.
    Mr. Chairman, that concludes my statement and I will be happy to 
answer any questions.

    Senator Akaka. Thank you very much for your statement. I 
see that the Department supports it and the National Capital 
Memorial Commission endorses it. So, my question to Mr. 
Parsons--I have a respect for former Presidents John Adams and 
John Quincy Adams for their valuable contributions to our 
Nation as we heard from colleagues earlier. The question is 
does authorizing this memorial suggest that we will now build 
memorials to all former presidents? Or is it possible to 
distinguish John Adams and John Quincy Adams from other former 
presidents?
    Mr. Parsons. We have, so far, commemorated eleven 
presidents in this city out of forty-three so it is done with 
careful deliberation for sure. They are not, of course, all of 
the scale of Jefferson, Washington and Lincoln. Many of them 
are modest. We are now working on one the Congress authorized 
for President Eisenhower. There is a commission established to 
work on that. So, I don't see a proliferation or a precedent-
setting situation as the previous bill brought us to debate. I 
have heard of no other proposals in the last 5 years to 
commemorate other presidents.
    Senator Akaka. Mr. Parsons, I don't have any further 
questions about H.R. 1668; if you will remain at the table we 
will call our next panel. Thank you very much, Ms. Gallagher.
    Mr. Nathan Frohling of the Tidelands Program of the Nature 
Conservancy, and Ms. Deborah Hoffman, Director of Economic 
Development in Passaic County, New Jersey. Mr. Frohling is here 
to testify on S. 513 and H.R. 182, authorizing the study of the 
Eightmile River in Connecticut as a Wild and Scenic River. And 
Ms. Hoffman is testifying on S. 386 and H.R. 146 authorizing a 
park study of the Great Falls Historic District in Paterson, 
New Jersey. Please proceed with your testimony, Mr. Parsons, on 
both bills.

  STATEMENT OF JOHN G. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
    LANDS, RESOURCES AND PLANNING, NATIONAL CAPITAL REGION, 
         NATIONAL PARK SERVICE, ON S. 513 AND H.R. 182

    Mr. Parsons. Let me start with the Eightmile River in the 
State of Connecticut, which is S. 513, and its companion 
measure, H.R. 182, that was passed by the House. These bills 
would amend the Wild and Scenic Rivers Act by designating 
segments of the Eightmile River for study and potential 
addition to the Wild and Scenic Rivers system. Although the 
Department supports the enactment of both pieces of 
legislation, we will not request funding for this study in the 
next fiscal year so as to the focus our available time and 
resources on completing previously authorized studies. As you 
may know, there are forty-one studies that have been authorized 
by Congress that are now pending, and we only expect to 
complete a few of those a year. Hence our hesitancy to proceed 
or to give people the impression that we are going to proceed 
at this time.
    By supporting this legislation authorizing a study, it does 
not necessarily mean the Department will support designation of 
these segments as additions to the Wild and Scenic Rivers 
system. The administration is determined to eliminate the 
deferred-maintenance backlog in National Parks and the cost of 
new parks or other commitments such as grants for Wild and 
Scenic Rivers could divert funds from taking care of current 
responsibilities.
    As you heard earlier from Senator Dodd, the Eightmile River 
is located in the Lower Connecticut River watershed in south 
central Connecticut. Fifteen miles of the Eightmile River and 
its east branch through the communities of Lyme, East Haddam 
and Salem are included on the National Park Service's 
Nationwide Rivers Inventory of potential Wild and Scenic Rivers 
for their outstanding scenery, and for their geological fish 
and wildlife values.
    There is strong local support for protecting the river 
system as evidenced by the community's formation of an inter-
municipal watershed committee and the signing of an innovative 
Eightmile River Watershed Conservation Compact. The Eightmile 
River Watershed Committee has built a substantial foundation 
for development of river management strategies that rely on 
State and local conservation measures to protect the river and 
its resources. And that concludes my testimony on that bill. 
Would you like me to proceed, or would you like to deal with 
that one first?
    [The prepared statement of John Parsons on S. 513 and H.R. 
182 follows:]
  Prepared Statement of John G. Parsons, Associate Regional Director, 
Lands, Resources, and Planning, National Capital Region, National Park 
                    Service, on S. 513 and H.R. 182
    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss the views of the Department of the Interior on S. 513 
and H.R. 182 as passed by the House. These bills would amend the Wild 
and Scenic Rivers Act by designating segments of the Eightmile River 
for study and potential addition to the Wild and Scenic Rivers System.
    Although the Department supports enactment of both pieces of 
legislation, we will not request funding for this study in this or the 
next fiscal year, so as to focus available time and resources on 
completing previously authorized studies. As of now, there are 41 
authorized studies that are pending, and we only expect to complete a 
few of those this year. We caution that our support of this legislation 
authorizing a study does not necessarily mean that the Department will 
support designation of these segments as additions to the Wild and 
Scenic Rivers System. The Administration is determined to eliminate the 
deferred maintenance backlog in national parks, but the cost of new 
parks or other commitments, such as grants for Wild and Scenic Rivers, 
could divert funds from taking care of current responsibilities. 
Furthermore, in order to better plan for the future of our National 
Parks, we believe that any such studies should carefully examine the 
full life cycle operation and maintenance costs that would result from 
each alternative considered.
    The Eightmile River is located in the lower Connecticut River 
watershed in south central Connecticut. Fifteen miles of the Eightmile 
River and its East Branch through the communities of Lyme, East Haddam, 
and Salem, Connecticut are included on the National Park Service's 
Nationwide Rivers Inventory of potential Wild and Scenic River 
segments. Both segments are included on the inventory for outstanding 
scenic, geologic, fish and wildlife values. Over eighty percent of the 
Connecticut River watershed is still forested, including large tracts 
of unfragmented hardwood forests that are home to a diverse assemblage 
of plants and animals including bobcats, great horned owls, red foxes, 
and the cerulean warbler.
    Over the course of the past two years, the National Park Service 
has responded to interest and inquiries from local advocates and town 
officials regarding a potential Wild and Scenic River study for the 
Eightmile River. There appears to be strong local support for 
protecting the river system, as evidenced by the communities' formation 
of an intermunicipal watershed committee and the signing of an 
innovative ``Eightmile River Watershed Conservation Compact.'' This 
compact, signed by the communities of East Haddam, Lyme and Salem, 
acknowledges their commitment to protect and enhance water resources, 
wildlife habitats, and rural landscapes in the watershed.
    A study of a river to determine if it meets the criteria for 
designation of a wild and scenic river is the necessary first step to 
designating a river or a portion of a river as a unit of the National 
Wild and Scenic Rivers System. The Department recognizes that any study 
of the Eightmile River should be evaluated in concert with all 
interested stakeholders at the local level. A study of the river from 
the confluence with the Connecticut to the headwaters of the mainstem 
and East Branch has strong local support.
    The Eightmile River Watershed Committee has built a substantial 
foundation for the development of river management strategies that rely 
on state and local conservation measures to protect the river and its 
resources. Any National Park Service assistance would be contingent on 
the availability of funding and National Park Service priorities. The 
Department will work closely with local communities before any action 
is taken by the National Park Service on the two segments of the river.
    This concludes my prepared remarks, Mr. Chairman. I will be happy 
to answer any questions you or other committee members may have 
regarding this bill.

    Senator Akaka. Why don't you proceed to the other bill.

  STATEMENT OF JOHN G. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
    LANDS, RESOURCES AND PLANNING, NATIONAL CAPITAL REGION, 
         NATIONAL PARK SERVICE, ON S. 386 AND H.R. 146

    Mr. Parsons. Next I will provide the comments on S. 386 and 
H.R. 146 which authorizes the Secretary of the Interior to 
study the suitability and feasibility of designating the Great 
Falls Historic District in Paterson, New Jersey as a unit of 
the National Park System. The Department of the Interior has 
concerns about conducting this study. We believe that existing 
congressional legislation already offers the Historic District 
ample authorization for historic preservation projects that 
encourage compatible economic development in Paterson. We are 
concerned that such a study would serve to divert the city of 
Paterson and the National Park Service from the very real 
opportunities already authorized by Congress in 1992 and 1996, 
opportunities that have not yet been fully implemented or 
realized.
    In addition, the Department will not necessarily request 
funding for the study as I have just reported in the Eightmile 
River testimony, and I will not repeat that.
    In the fiscal year 1992 Appropriations bill for the 
Department of the Interior, Congress appropriated funds for the 
New Jersey Urban History Initiative to provide funding for 
historic preservation projects that encourage economic 
development throughout the State. The city of Paterson was 
authorized to receive $4.147 million in this Urban History 
Initiative. Over the years, the National Park Service has 
worked closely with the city to use the money to protect 
historic resources while fostering compatible economic 
development. This initiative has shown results such as funding 
projects for research, community grants, and restoration of 
historic resources. For example, the Urban History Initiative 
funds were used for an oral history project and ethnographic 
study conducted by the Library of Congress.
    In the Omnibus Parks and Public Lands Management Act of 
1996, 4 years later, Congress authorized $3.3 million in 
matching grants and assistance to develop and implement a 
preservation plan for the District and to permit the 
development of a market analysis with recommendations of the 
economic development potential. The city of Paterson is 
committed to raising the matching funds required in this 
authorization. Such matching funds will be important because 
recent legislation indicates that Congress expects significant 
Federal matches for new units of the National Park System 
containing large numbers of historic buildings such as New 
Bedford and Boston Harbor. Without this demonstrated local 
support for the operation and protection of the new park units, 
it is probably not feasible to recommend their addition to the 
system.
    Our concern is that given the limited resources, a special 
resource study, which is suggested by this bill, could divert 
our attention from the existing opportunities in the act I just 
mentioned. A special resource study can take years to complete, 
especially when considering other congressionally authorized 
studies that are competing for limited money available in this 
program. If recommendations of the study were negative and no 
congressional action forthcoming, years would have passed with 
no preservation or development action. The breadth of 
activities already allowed from the 1996 Act is much greater 
than those normally authorized for a National Park unit. It is 
our sincere wish that the currently authorized preservation 
initiative for Paterson be allowed to proceed rather than being 
delayed by this study.
    That concludes my testimony. I will be glad to answer 
questions you may have.
    [The prepared statement of John Parsons on S. 386 and H.R. 
146 follows:]
  Prepared Statement of John G. Parsons, Associate Regional Director, 
Lands, Resources, and Planning, National Capital Region, National Park 
                    Service, on S. 386 and H.R. 146
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
386 and H.R. 146, bills to authorize the Secretary of the Interior to 
study the suitability and feasibility of designating the Great Falls 
Historic District in Paterson, New Jersey, as a unit of the National 
Park System.
    The Department of the Interior has concerns about conducting this 
study. We believe existing congressional legislation already offers the 
Historic District ample authorization for historic preservation 
projects that encourage compatible economic development in Paterson. We 
are concerned that such a study would serve to divert the City of 
Paterson and the National Park Service from the very real opportunities 
authorized by Congress in 1992 and 1996, opportunities that have yet to 
be fully realized. In addition, the Department will not necessarily 
request funding for the study in this or the next fiscal year, so as to 
focus available time and resources on completing previously authorized 
studies. As of now, there are 41 authorized studies that are pending, 
and we only expect to complete a few of those this year. If this study 
is authorized, this does not necessarily mean that the Department will 
support designation of this site as a new unit. The Administration is 
determined to eliminate the deferred maintenance backlog in national 
parks, but the costs of establishing and operating a new national park 
could divert funds from taking care of current responsibilities. 
Furthermore, in order to better plan for the future of our National 
Parks, we believe that any such studies should carefully examine the 
full life cycle operation and maintenance costs that would result from 
each alternative considered.
    Paterson, New Jersey has a rich history as the Nation's first 
planned industrial city as well as containing some of the country's 
oldest textile mills. In 1792, Alexander Hamilton formed an investment 
group called the Society of Useful Manufactures whose funds would be 
used to develop a planned industrial city in the United States that was 
later to become Paterson. Hamilton believed that the United States 
needed to reduce its dependence on foreign goods and should instead 
develop its own industries. The industries developed in Paterson were 
powered by the 77-foot high Great Falls of the Passaic, and a system of 
water raceways that harnessed the power of the falls. The district 
originally included dozens of mill buildings and other manufacturing 
structures associated with the textile industry and later, the 
firearms, silk, and railroad locomotive manufacturing industries. In 
the latter half of the 1800's, silk production became the dominant 
industry and formed the basis of Paterson's most prosperous period, 
earning it the nickname ``Silk City.'' Paterson was also the site of 
historic labor unrest that focused on anti-child labor legislation, 
safety in the workplace, a minimum wage, and reasonable working hours.
    Industrial decline in Paterson followed the general pattern for 
northern textile cities, with a major decrease in business during the 
middle third of the 20th Century. Today, the historic district reflects 
many phases of decline and renewal: some buildings are deteriorated and 
vacant, while others continue in industrial use or have been adaptively 
reused for housing and offices.
    Because of its significant role in the economic and industrial 
development of the United States, the 89-acre Great Falls of the 
Passaic/Society of Useful Manufacturers Historic District was listed on 
the National Register of Historic Places in 1970 and designated a 
National Historic Landmark (NHL) in 1976. Since 1988 the District has 
been listed as a Priority One threatened National Historic Landmark in 
the Department of the Interior's annual report to Congress on NHLs. 
This threatened status is primarily based on the condition of the 7-
acre site that formerly housed the Allied Textile Printers. This site, 
immediately below the Great Falls, has been devastated by a dozen fires 
over the last 15 years. The site was acquired by the City of Paterson 
through foreclosure in 1994 and a developer is currently under contract 
to redevelop the site.
    In the Fiscal Year 1992 Appropriations bill for the Department of 
the Interior, Congress appropriated funds for the New Jersey Urban 
History Initiative to provide funding for historic preservation 
projects that encourage economic development. The City of Paterson was 
authorized to receive $4.147 million in Urban History Initiative Funds 
to be administered by the NPS under a cooperative agreement with the 
City. Over the years, the National Park Service (NPS) has worked 
closely with the City to use the money to protect historic resources 
while fostering compatible economic development. This initiative has 
shown results such as funding projects for research, community grants, 
and restoration of historic resources. For example, Urban History 
Initiative Funds were used for an oral history project and ethnographic 
study conducted by the Library of Congress' American Folklife Center. 
Funds were also used for the stabilization of the ruins of the Colt Gun 
Mill as part of a match for a New Jersey Historic Trust grant to the 
City of Paterson.
    The second major congressional initiative to support historic 
preservation opportunities in Paterson is section 510 of the Omnibus 
Parks and Public Lands Management Act of 1996 (Public Law 104-333; 110 
Stat. 4158). The Great Falls Historic District was authorized for $3.3 
million in matching grants and assistance to develop and implement a 
preservation and interpretive plan for the District, and permit the 
development of a market analysis with recommendations of the economic 
development potential of the District. Yet, none of these funds 
authorized in 1996 have been appropriated.
    Although the City has committed to the raising of the matching 
funds required under the authorization, we do not believe that this has 
yet occurred. Such matching funds will be important because recent 
legislation indicates that Congress expects significant non-federal 
matches for new units of the national park system containing large 
numbers of historic buildings such as the New Bedford National 
Historical Park and Boston Harbor Islands National Recreation Area. 
Without this demonstrated local financial support for the operation and 
protection of new park units, it is probably not feasible to recommend 
their addition to the System.
    The 1996 legislation provides Paterson with the opportunity both to 
demonstrate its capacity for partnership, and to develop and implement 
a preservation program as indicators of its commitment and capacity.
    Our concern is that given limited resources, a special resource 
study (SRS) could divert attention from the existing opportunities 
authorized in the 1996 Act. The SRS could easily take years to 
complete, especially when considering other congressionally authorized 
studies that are competing for limited money available in this program. 
If the recommendations of the study were negative and no congressional 
action forthcoming, years would have passed with no preservation or 
development action.
    The National Park Service believes in the important historic and 
natural resources in the City of Paterson, and we believe in the 
capacity of the City to identify matching funding. There are signs this 
is beginning to happen. The breadth of activities allowed under the 
1996 Act is much greater than those normally authorized for a national 
park unit. It is our sincere wish that the currently authorized 
preservation initiative for Paterson be allowed to proceed rather than 
being delayed by a study.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

    Senator Akaka. Thank you for your testimony. Mr. Nathan 
Frohling on S. 513 and H.R. 182.

 STATEMENT OF NATHAN M. FROHLING, TIDELANDS PROGRAM DIRECTOR, 
          CONNECTICUT CHAPTER, THE NATURE CONSERVANCY

    Mr. Frohling. Good afternoon. It is a delight and pleasure 
to be here and thank you for the opportunity to comment on this 
legislation. Mr. Chairman and members of the subcommittee, I 
appreciate this opportunity to testify on behalf of the Nature 
Conservancy in support S. 513 and H.R. 182.
    The Nature Conservancy is an international, non-profit 
organization dedicated to preserving the plants, animals and 
natural communities that represent the diversity of life on 
earth. We have more than 1 million members and have protected 
more than 12 million acres in the United States and Canada. We 
work very closely with local communities and in partnership 
with both public and private landowners.
    The Tidelands Program, which I direct in Connecticut, seeks 
to protect the key ecological areas within a 560 square mile 
region of the Lower Connecticut River. This region known as the 
Tidelands has received considerable acclaim over the last 10 
years. Senator Dodd alluded to early today it being named one 
of forty last great places in the Western Hemisphere and 
included under the International Ramsar Convention among other 
recognitions.
    The Eightmile River is one of the most outstanding natural 
features of the Tidelands region and is a top priority for the 
Nature Conservancy. I refer you to the map on my right, which 
shows you the State of Connecticut. The yellow portions 
represent the Lower Connecticut River watershed. The darker 
yellow represents what we consider to be the Tidelands Region, 
this 560 square mile region. And the bright yellow is the 
Eightmile River watershed to give you a geographic context.
    It is rare to find entire ecosystems intact throughout the 
range, especially on the east coast. But the 40,000 acre 
Eightmile River watershed is one example; one last remaining 
example of an intact freshwater ecosystem. 85% of this 
watershed is forested and it contains the largest unfragmented 
forested region in coastal Connecticut. 9,700 acres, almost 25% 
of this watershed, are permanently protected already. You see a 
map of the watershed here and the orange color represents the 
large blocks of unfragmented forest. The blue and yellow 
represent some of the most sensitive water resource components 
of this watershed. Many of the white areas are also important, 
but these colors that you see--the orange, yellow and blue--
represent the most important natural resources of this 
watershed. As you can see the vast majority of the watershed 
stands out as being recognized as important.
    The Eightmile River is free flowing and the water quality 
of its extensive wetlands and water courses is excellent 
throughout. From native brook trout to blueback herring, the 
river system is a haven for fish in terms of diversity and 
abundance. It contains globally rare species and the 
internationally recognized fresh water tidal marsh of Hambert 
Cove, which is the very lower left portion of the map.
    There are other smaller things that we do not often see, 
such as submerged aquatic vegetation and fresh water mussels. 
The Eightmile River is also within the State's elite for 
aquatic organisms such as mayflies, beetles and snails. And 
while many of us might not get excited about that on a day to 
day basis, all of these features testify further to the fact 
that this is a remarkable ecosystem particularly again in 
coastal, highly developed Connecticut and the Eastern Seaboard.
    This, along with the scenic beauty and recreational 
abundance in the Eightmile, make this highly regarded resource 
by the communities that live in the area and one of those 
things that people value highly is the fishing that they enjoy 
along the river's bank. It is listed as, Mr. Parsons mentioned, 
in the Nationwide Rivers Inventory. We think there is little 
doubt about the Eightmile River system qualifying as far as the 
outstanding remarkable values that are key for a Wild and 
Scenic designation.
    The greatest threat to these values is the incremental, 
unplanned growth. And while growth is inevitable the question 
is whether it will be managed to sustain the national 
outstanding values that are here. Six years ago the Eightmile 
River Watershed project was formed by local citizens and 
officials at the University of Connecticut to work toward 
conservation of this special resource and to initiate the new 
model for balancing conservation and growth within a watershed. 
Now having generated considerable information and community 
interest, we look to support a community process of self-
determination in conserving this special place.
    A Wild and Scenic River study is the best vehicle to 
achieving this goal and that is because the process associated 
with it provides the incentive, the structure, the expertise 
and resources needed for these communities to come together and 
collectively identify the issues and goals they have for this 
resource, and to set forth the means for achieving those goals. 
The study is being sought as much to facilitate this community 
self-determination as to achieve the designation.
    A Wild and Scenic River designation would also offer 
special, important protection not otherwise available locally 
or through the State of Connecticut. Widespread support exists 
for a study as letters and newspaper editorials attest. 
Riverfront landowners as well as conservation and economic 
development interests have taken time to express that support. 
The communities are ready to do their part. A small, Federal 
contribution through this study can leverage a very large, 
local effort and the value associated with sustaining a natural 
treasure. The study would leverage the kind of volunteer 
community-based initiative that has been hailed for sustaining 
the fabric of our communities. And I might add that it would 
not require Federal land acquisition. It would not require 
Federal land management and it would not become a Federal park.
    The time is critical. Not only is the resource being lost 
everyday but the communities determination and readiness to 
move ahead is tied to the momentum that has been built over the 
last 6 years and which now rests in our hopes for this study. 
The people of these communities are looking for your support.
    Thank you very much for the opportunity to testify in 
support S. 513.
    [The prepared statement of Mr. Frohling follows:]
 Prepared Statement of Nathan M. Frohling, Tidelands Program Director, 
              Connecticut Chapter, The Nature Conservancy
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's testimony in support of 
S. 513 and H.R. 182, legislation to authorize a Wild and Scenic River 
Study for the Eightmile River in Connecticut.
    The Nature Conservancy is an international, non-profit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. The Conservancy has more than 1,000,000 individual 
members and 1,900 corporate associates. We currently have programs in 
all 50 states and in 27 foreign countries. To date we have protected 
more than 12 million acres in the 50 states and Canada, and have helped 
local partner organizations preserve 60 million acres overseas. The 
Conservancy owns and manages 1,342 preserves throughout the United 
States--the largest private system of nature sanctuaries in the world. 
Sound science and strong partnerships with public and private 
landowners to achieve tangible and lasting results characterize our 
conservation programs.
    As director of the Tidelands Program, I lead The Nature 
Conservancy's efforts to conserve the Eightmile River system. The 
Tidelands Region, which includes the Eightmile River and its 39,900-
acre watershed, is a top priority for The Nature Conservancy in 
Connecticut. The Tidelands contains extensive yet globally rare tidal 
marsh communities, globally rare and endangered species, and a regional 
landscape that is largely intact. The Nature Conservancy recognized 
this area in 1993 as one of the ``40 Last Great Places in the Western 
Hemisphere.'' The Tidelands were designated in 1994 as containing 
Wetlands of International Importance under the Ramsar Convention and 
this area is recognized as one of the most outstanding areas within the 
boundaries of the Silvio O. Conte National Wildlife Refuge.
    I also serve as Co-Chair of the Eighmile River Watershed Committee, 
a group of local officials and citizens charged with implementing the 
``Eightmile River Watershed Project.'' The goal of this project is to 
enable the three communities, Lyme, East Haddam and Salem, to balance 
conservation and growth in order to maintain the integrity of the 
watershed. Passage of legislation to authorize a Wild and Scenic River 
Study on the Eightmile River will significantly enhance community-based 
efforts to conserve the unique resources of this globally significant 
region.
                          the eightmile river
    The Eightmile name is based on the distance between the location of 
its mouth at the Connecticut River and the mouth of Connecticut River 
at Long Island Sound. Extensive wetlands and watercourses combine to 
form the 10 mile long East Branch, the 10 mile long West Branch, and 
the 5 mile main stem of the river. There are other major tributaries 
such as Beaver Brook, Harris Brook, and Falls Brook. The water quality 
throughout the river system is excellent. There are no known pollution 
sources. An old, minor source of potential pollution is the only reason 
the state has not classified the river at the highest drinking water 
classification. There has been no evidence of pollution.
    The Eightmile River system is one of the most significant aquatic 
resources within the Lower Connecticut River watershed and contains a 
number of outstanding and remarkable ecological, historical, cultural 
and recreational resource values. Within Southern New England, and 
particularly coastal Connecticut, it is uncommon to find entire 
ecosystems intact throughout their range, particularly at the scale of 
the 39,900-acre Eightmile River Watershed. From species to natural 
communities to its extensive wetland and watercourse system to its 
unfragmented forest, the Eightmile is an outstanding national treasure.
    Eighty-five percent of the Eightmile River Watershed is forested. 
Most notably this forest habitat is largely intact; it is the largest 
unfragmented forest region in coastal Connecticut. In total, about 65% 
or 26,000 acres of the watershed is completely unfragmented and the 
remaining 35% are only sparsely developed. The watershed benefits from 
a high level of protection. The State of Connecticut, The Nature 
Conservancy, each of the towns, the local land trusts and others have 
conserved 9,700 acres or 24% of the watershed. The intact forest of the 
Eightmile River Watershed provides increasingly rare interior nesting 
bird habitat.
    The Eightmile River is virtually free flowing throughout its 
extent. The only dams of any significance have both had fish ladders 
installed. The River contains the various forms of aquatic habitat 
types such as pools and riffles, rocky whitewater sections, sandy and 
gravely bottoms, waterfalls, and wide, slow sections. The riparian 
zones are largely intact throughout the river system. The river is 
considered by the Connecticut Department of Environmental Protection to 
be an exemplary occurrence of one of Connecticut's most imperiled 
natural communities--free flowing rivers and streams.
    The River system is a haven for fish, both resident and migratory. 
There is a great diversity and abundance of fish species that use the 
river throughout their various life stages. It is one of Connecticut's 
best trout streams. The River contains native brook trout, brown trout 
and rainbow trout, plus minnows, suckers and small-mouthed bass. 
Anadromous species include alewife herring, blueback herring, sea 
lamprey, striped bass, and sea-run brown trout. Efforts are underway to 
restore Atlantic salmon and American shad.
    Two globally rare plant species are known to exist in the Eightmile 
River system, Parker's pipewort and Eaton's beggar tick. The American 
bald eagle is also frequently found here. There are many more state 
rare species and habitats suitable for supporting such species. Hamburg 
Cove at the mouth of the river is an internationally recognized fresh 
water tidal marsh community.
    Along with these species and communities there are other key 
indicators of a healthy aquatic system. Extensive, native beds of 
submerged aquatic vegetation exist. Fresh water mussels are present and 
exotic mussels are not. One in ten American mussel species has gone 
extinct over the last century, and almost three-fourths of the 
remaining species are globally rare. The Eightmile River contains both 
the brook floater and eastern pearlshell mussel; both are protected by 
the Connecticut Endangered Species Act. The Eightmile River is in the 
State's elite for other small aquatic organisms such as mayflies, 
damselflies, dragonflies, beetles, snails, etc. Among several 
categories of insect life, the Eightmile exceeds all other sites 
according to state aquatic biologist Guy Hoffman.
    The Eightmile River and the watershed are highly prized by the 
three towns through which it flows--Lyme, East Haddam and Salem. The 
watershed is approximately one third to one half of the land area in 
each of these towns. It is a rural landscape with great scenic beauty 
and offers an abundance of recreational opportunities. It is one of the 
best rivers in Connecticut for fishing and it supports boating from 
canoeing and kayaking to power and sail in the river's downstream 
sections. Hiking, sightseeing, hunting, and nature observation are 
among popular activities within the watershed at a number of State 
Forest areas, Devil's Hopyard State Park, and three large preserves 
owned by The Nature Conservancy that are all open to the public.
    Much of the watershed's existing development is historic and well 
integrated into the landscape. The river and watershed's high quality 
defines the character of these three towns. It is at the heart of the 
quality of life enjoyed by area residents. Economic interests also 
recognize this because economic vitality here, primarily tourism, is 
largely based on that quality.
    The greatest threat to the special attributes of the Eightmile 
River and its watershed is incremental, unplanned growth. It results in 
landscape and habitat fragmentation, the loss of water quality, the 
loss of important species and natural communities, the intrusion of 
undesirable nuisance species, and obscures other qualities of this 
region. Change and growth is inevitable; for example, East Haddam is 
one of the fastest growing towns in the state. This issue is whether 
growth will be managed to protect and sustain the unique resource at 
the heart of this region. There are other potential threats such as the 
diversion of ground water for water supply in distant towns or golf 
course irrigation that could leave the hydrology of the system 
seriously altered, especially during normally low-flow periods.
  the eightmile river watershed project and the wild and scenic river 
                                 study
    About six years ago, the Eightmile River Watershed Committee was 
formed to pursue the Eightmile River Watershed Project. The group was 
comprised of local officials and citizens, with the University of 
Connecticut Cooperative Extension System (UConn) and The Nature 
Conservancy providing staff support and resource expertise. The EPA 
Region One and Silvio O. Conte National Wildlife Refuge provided 
funding. The project goal: balance conservation and growth in the 
watershed in ways that ensure the long-term social, economic, and 
environmental health of its communities.
    The focus of the project thus far has been the development of 
educational resources to support good land use planning and thoughtful 
stewardship by local landowners. One of the first achievements was the 
signing by town leaders in December of 1997 of the ``Conservation 
Compact.'' This was an agreement between the three towns that committed 
each town to work together to protect shared natural and cultural 
heritage.
    Since that time, the thrust of activity has been in the use of 
computer-based geographic information system (GIS) technology to 
generate state-of-the-art maps and resource information about the 
watershed. Collectively these materials helped make it vividly clear 
just how unique and precious the Eightmile River Watershed is to those 
who live here. The results were shown to various audiences in the 
community through slide shows and presentations. They generated 
considerable interest and support for further action.
    The Nature Conservancy has worked closely with the Eightmile River 
Watershed Committee, each of the three towns, community groups and 
individuals. During this past year, we have collectively looked at how 
best to take the information gathered and community interest generated 
to accomplish tangible on-the-ground results for protecting the river 
and watershed. Together we have recognized that going back to the 
communities to directly involve them in decision-making about the 
future of the river and watershed was the best course of action and 
that a Wild and Scenic River Study is the best vehicle for doing so. 
There are several reasons a Wild and Scenic River Study is the best way 
to protect the Eightmile River.

  <bullet> The Eightmile River has the necessary outstandingly 
        remarkable values to be eligible for designation.
  <bullet> A Wild and Scenic River Study, and the process associated 
        with it, provides the structure, expertise, funding and 
        facilitation needed for the communities as a whole to come 
        together and collectively identify the issues and goals they 
        have for the resource, and to set forth the means for meeting 
        those goals. This is the heart of the matter; the conservation 
        needed is most likely to come through community-based self-
        determination. Despite strong interest, it is not likely that 
        such a community process will happen without the incentive of 
        the Wild and Scenic River designation process. As important as 
        designation itself may become, the pursuit of a Wild and Scenic 
        River study now is being sought as much for the opportunity it 
        provides to support community-based action and self-
        determination as it is to achieve the designation itself.
  <bullet> A Wild and Scenic River designation, if achieved, would 
        offer important protections not otherwise available locally or 
        through the State of Connecticut. Federally funded or permitted 
        water resource related projects that would have a direct and 
        adverse impact on the river would not be allowed under 
        designation. There are several threats to the Eightmile where 
        this may be important including, for example, adverse water 
        diversions.
  <bullet> The Study would provide a greater level of scientific 
        information than we have currently, which might be especially 
        useful for future decision-making.
  <bullet> A Wild and Scenic River study represents the potential to 
        bring in needed funds to support the community-based process 
        that has been identified.
  <bullet> The Wild and Scenic River designation process would be built 
        on local control. The ability to maintain local control over 
        land use decisions is key.
  <bullet> The process would further facilitate coordination among the 
        three towns.

    There has been wide spread support at the community level for a 
Wild and Scenic River Study and for potential Wild and Scenic River 
designation. A concern for the future for the Eightmile River, a love 
of the Eightmile River Watershed area, and community pride have 
combined with a recognition that the Wild and Scenic River process 
offers an excellent tool to address these collective interests. Over 40 
letters from all levels of local government, community groups and 
individuals, including riverfronting property owners, have been 
submitted requesting the Study. Leading newspapers have carried 
editorials endorsing the Wild and Scenic River effort. These are 
summarized in the attached exhibits.
    Thank you very much for the opportunity to testify in support of S. 
513 and H.R. 182. I urge the committee's favorable consideration of 
this important legislation. I would be happy to answer any questions 
from members of the committee.

    Senator Akaka. Thank you very much.
    Ms. Hoffman.

    STATEMENT OF DEBORAH HOFFMAN, DIRECTOR, PASSAIC COUNTY 
               DEPARTMENT OF ECONOMIC DEVELOPMENT

    Ms. Hoffman. Thank you Mr. Chairman and the members of this 
subcommittee for affording me the opportunity to testify here 
today. It is an honor to be before this committee and to be 
able to offer my views on the Great Falls Historic District 
Study Act.
    As Senator Torricelli and Congressman Pascrell have 
eloquently stated, the Great Falls Historic District is a 
resource with a significant history worthy of being part of our 
National Park System. It reflects the determination of 
Alexander Hamilton, Paterson's founder and the first Secretary 
of the Treasury, to develop a strong manufacturing base in the 
United States.
    The structures within the District represent one of the 
finest collections of nineteenth and early twentieth century 
mill architecture in the country. With its unique, largely 
intact, three-level water raceway system constructed to power 
the mills, the district remains a cohesive historic presence.
    As the head of economic development for Passaic County, I 
know first-hand the economic rejuvenation, which is powering us 
into the 21st century. Today the Great Falls is home to a 
unique blend of manufacturing, office, retail, residential, 
health services and educational/cultural uses. Reinvestment in 
the area has been significant, showing an enthusiasm for the 
area's rich heritage and current prominence in our community.
    For example, in 1997, a company known as Longstreet 
Development came to the Great Falls seeking to create an 80,000 
square foot retail, commercial and residential complex known as 
Hamilton Square. This was one of the first major redevelopment 
projects in the district since the 1960s. The more than 50,000 
square foot Rodgers Mill Building, once the location of 
automotive manufacturing, was converted to house the Paterson 
Museum and office suites, and the 30,000 square foot Franklin 
Mill was converted into office space.
    In addition the Historic District continues to draw 
interest in reinvestment from both public and private sectors. 
For example, the Parking Authority of the city of Paterson will 
be constructing a five-hundred car parking deck with 10,000 
square feet of parking space within the next 2 years. This will 
take place directly across from the Paterson Museum, which 
provides a venue for historical exhibits and art work for our 
local resident artist community.
    Not long ago, I was approached by Sol Wagner, president of 
Oklahoma Sound Enterprises. Mr. Wagner's company manufactures 
lecterns and podiums, employs 50, and desperately required 
additional space. Although they could have settled on any 
number of properties in North Jersey, they were drawn to the 
Historic Great Falls District due to its manufacturing history, 
readily available labor force and proximity to the Route 80 
Interstate. Regardless of the physical and financial 
constraints of the property, Sol Wagner is determined to be a 
part of the fabric of the Great Falls Historic District.
    But perhaps the best demonstration of private sector 
interest in the district can be typified by Mr. Jim Fabris who 
wants to bring a baking plant for Dunkin Donuts to a 17,000 
square foot historic building in the heart of the district. 
Abandoned for over a decade, the structure would house not only 
a manufacturing plant of baked goods for distribution to ten 
Dunkin Donut retail stores, but will offer tours to the public. 
Mr. Fabris is only at the beginning of his potential 
development, but he is a powerful example of the type of 
serious entrepreneur that seeks out the Great Falls Historic 
District and its historic glamour.
    The not-for-profit sector has also been very active in the 
district. For example, the North Jersey Community Coordinated 
Child Care Agency recently developed a facility on Oliver 
Street for its corporate offices and the operation of several 
day care centers.
    There is much to be excited about and much that can be 
fostered by the presence of the National Park Service. As you 
consider this legislation, I can assure the committee that 
there is a vibrant committed partnership in place to support a 
National Park designation. We have strong local support from 
the city of Paterson and the county of Passaic. As someone on 
the front lines everyday, I believe this is a pivotal time for 
the Great Falls Historic District. We must collectively decide 
if we will embrace the history of the site and build upon it, 
or miss this wonderful opportunity to protect and enhance a 
true national treasure.
    I urge the committee to support this legislation and thank 
you again for this opportunity.
    [The prepared statement of Ms. Hoffman follows:]
    Prepared Statement of Deborah Hoffman, Director, Passaic County 
                   Department of Economic Development
    Thank you Mr. Chairman and the members of this subcommittee for 
affording me the opportunity to testify here today. It is an honor to 
be before this committee and to be able to offer my views on this 
important legislation.
    As Congressman Pascrell has eloquently stated, The Great Falls 
Historic District is a resource with a storied history worthy of being 
part of our National Park System. It reflects the determination of 
Alexander Hamilton, Paterson's founder and our first Secretary of the 
Treasury, to develop a strong manufacturing base in the United States. 
At Hamilton's urging, the ``Society for the Establishment of Useful 
Manufactures,'' (SUM), was established in the early 1790's. This was 
the most ambitious industrial undertaking in America at the time, 
making the City of Paterson the ``New National Manufactory.''
    The structures within the District represent one of the finest 
collections of nineteenth and early twentieth century mill architecture 
in the country. With its unique, largely intact, three-level water 
raceway system constructed to power the mills, the district remains as 
a cohesive historic presence. Quite simply, it was America in all that 
made it great at the dawn of the 20th century.
    As the head of Economic Development for Passaic County, I know 
first-hand the economic rejuvenation that today is powering us into the 
21st century. The Great Falls is home to a unique blend of 
manufacturing, office, retail, residential, health services and 
educational/cultural uses. Reinvestment in the area has been 
significant, showing an enthusiasm for the area's rich heritage and 
current prominence in our community.
    For example, in 1997, a company known as Longstreet Development 
came to the Great Falls looking to create an 80,000 square foot retail, 
commercial and residential complex, known as Hamilton Square. This was 
one of the first major redevelopment projects in the district since the 
1960's. It involved the conversion of the 50,000 square foot 2 Market 
Street mill building--once the location of locomotive construction--to 
house the Paterson Museum and office suites; and the conversion of the 
30,000 square foot Franklin Mill into new office space. The structure 
also provides St. Joseph's Hospital and Medical Center with a premier 
location for their out-patient clinics, serving patients throughout a 
15-mile radius.
    Today, the Great Falls Historic District continues to draw interest 
and re-investment from both the public and private sectors. For 
example, the Parking Authority of the City of Paterson will be 
constructing a 500+ car parking deck with 10,000 square feet of retail 
space within the next two years. This will take place directly across 
from the Paterson Museum, which provides a venue for historical 
exhibits and artwork created from our local resident artist community.
    Not long ago, I was approached by Sol Wagner, President of Oklahoma 
Sound Enterprises. Mr. Wagner's company manufactures lecterns and 
podiums, employs 50, and desperately required additional space. 
Although they could have settled on any number of properties in North 
Jersey, they were drawn to the Great Falls Historic District due to its 
manufacturing history, readily available labor force and proximity to 
the Route 80 Interstate. Regardless of the physical and financial 
constraints of the property, including environmental contamination, the 
sudden filing of chapter 11 bankruptcy by the property's owner, and the 
potential collapse of the roof due to the failure of 5 roof trusses, 
Oklahoma Sound is forging ahead. Sol Wagner is determined to be a part 
of the fabric of the Great Falls Historic District.
    But perhaps the best demonstration of private sector interest in 
the district can be typified by Mr. Jim Fabris, who wants to bring 
Dunkin Donuts to a 17,000 square foot historic building in the heart of 
the district. Abandoned for over a decade, this structure would house 
not only a manufacturing plant for distribution to 10 Dunkin Donut 
establishments, but will offer tours to the public. Mr. Fabris is 
determined to work with local officials to make his dream a reality, 
despite the necessary costly renovations that will be needed to convert 
the facility to a modern ``food'' building. Mr. Fabris is only at the 
beginning of his potential development, but he is a powerful example of 
the type of serious entrepreneur that seeks out the Great Falls 
Historic District and its historic glamour.
    The not-for-profit sector has also been very active in the 
district. The North Jersey Community Coordinated Child Care Agency 
(4C's) is developing a manufacturing facility on Oliver Street for its 
corporate offices and the operation of several day care centers. There 
is much to be excited about, and much that can be fostered by the 
presence of the National Park Service.
    As you consider this legislation, I can assure the committee that 
there is a vibrant, committed partnership in place to support a 
National Park designation. We have strong local support from the City 
of Paterson and the County of Passaic.
    As someone on the front lines everyday, I believe this is a pivotal 
time for the Great Falls Historic District. We must collectively decide 
if we will embrace the history of the site and build upon it, or miss 
this wonderful opportunity to protect and enhance a true national 
treasure.
    I urge the committee to support this legislation and thank you 
again for this opportunity.

    Senator Akaka. Thank you very much. I have questions for 
John Parsons. Mr. Parsons, your testimony indicates that the 
Department wants to carefully examine the full lifecycle of 
operational and maintenance costs for each option considered.
    I am not aware of any significant maintenance cost for Wild 
and Scenic River segments, especially rivers in the East such 
as Eightmile River where there is not likely to be any Federal 
land acquisition or little Federal management other than 
approval of the local government's river management plan. Are 
there other significant costs associated with the designation 
of an area as a Wild and Scenic River?
    Mr. Parsons. No, Mr. Chairman, there are not. It is a grant 
program as you have illustrated, but the idea of examining a 
new designation's cost is something we are going to try to 
insert into each of the special resource studies in the future; 
not necessarily a cost to the Federal Government, but a cost in 
general of managing a river of this kind.
    Senator Akaka. I have a question for you and Ms. Hoffman 
concerning the Great Falls Historic District National Park 
Service study. I understand the purpose of a study is to answer 
questions about the suitability and feasibility of designating 
an area as part of a National Park System. At this point does 
anyone have any comments about how a park such as the Great 
Falls Historic District might operate? Would there likely be a 
cooperative agreement with local authorities involved in joint 
funding of the park? Or would there be a major Federal presence 
including land and building acquisition by the Park Service? 
Either you or Ms. Hoffman.
    Ms. Hoffman. Thank you very much for the question. I cannot 
speak on behalf of the city of Paterson, but I am confident in 
their dedication to this area and to the commitment to this 
area. The county of Passaic considers it really a gem and I am 
sure would consider funding for the area. In addition, I have 
spoken to many of the businesses operating in the area and 
there is a potential to develop a special improvement district, 
which is a State legislation and a local legislation, that 
would actually develop matching funding to operate certain 
types of services in the area. And so I think you would see a 
local initiative and capability of that. I don't know whether 
or not that would generate multi-millions of dollars but it 
would certainly show a commitment on the part of the local 
economy and local businesses.
    Senator Akaka. Mr. Parsons.
    Mr. Parsons. The purpose of this special resource study is 
exactly as you have outlined. At least three alternatives would 
be evaluated. One would be doing nothing, which would continue 
the Congress' 1992 and 1996 legislation and may be supplemented 
with others. The second would be an affiliated area, an area 
that is managed in joint cooperation in some fashion with the 
city of Paterson or a foundation or others. And the third would 
be the more traditional unit of the National Park System. 
Another aspect of this special resource study, of course, is to 
examine thematically elsewhere in the Park System as to whether 
this would be duplicative of another unit of the Park System.
    Senator Akaka. Well, I don't have any questions for Mr. 
Frohling. And I want to thank all of you for your testimony. 
Finally, Mr. Parsons, you are the only witness on two matters, 
both of which I believe are non-controversial. The first is S. 
921 and its House-passed companion, H.R. 1000 to adjust the 
boundary of the William Howard Taft National Historic Site in 
Ohio. The final is S. 1097 to authorize the Park Service to 
issue rights-of-way permits for the Great Smoky Mountains 
National Park. Mr. Parsons please proceed with your testimony 
on both bills.

  STATEMENT OF JOHN G. PARSONS, ASSOCIATE REGIONAL DIRECTOR, 
    LANDS, RESOURCES AND PLANNING, NATIONAL CAPITAL REGION, 
    NATIONAL PARK SERVICE, ON S. 921, H.R. 1000, and S. 1097

    Mr. Parsons. Mr. Chairman, in the interest of time I am 
going to be very brief. S. 921 as outlined to you by Senator 
DeWine earlier this afternoon is a very creative solution to a 
problem that both we and the SABIS school have in that 
community. It would authorize a land exchange with them to 
accommodate their growth as well as provide us with a parking 
lot on their existing property. It would also authorize the 
National Park Service to acquire two other pieces of property 
and we would urge the committee to pass favorably on that 
measure.
    Regarding S. 1097, which affects the Great Smoky Mountains, 
as you may be aware the National Park Service is precluded from 
issuing rights-of-way permits to oil and gas pipelines. This is 
not true of electric facilities or water transmission, but it 
is true of petroleum products. So, in a situation that we have 
like this with a linear parkway we are often in the way. 
Whether it is the George Washington Memorial Parkway here in 
Washington or the Baltimore Washington Parkway, when you are 
managing a linear park and people have to cross it with 
utilities of this kind, our only remedy is to come to Congress 
to seek specific legislation and that is what this would do.
    There is an existing pipeline and we would like to grant 
right-of-way authority for that, and for a new pipeline that is 
needed by the city of Gatlinburg. This would allow the park to 
issue a right-of-way permit for both, and we would urge you to 
report favorably on this bill as well. Thank you.
    [The prepared statement of John Parsons on S. 921, H.R. 
1000, and S. 1097 follows:]
  Prepared Statement of John G. Parsons, Associate Regional Director, 
Lands, Resources, and Planning, National Capital Region, National Park 
               Service, on S. 921, H.R. 1000, and S. 1097
                          S. 921 and H.R. 1000
    Mr. Chairman, thank you for the opportunity to appear before the 
subcommittee to present the position of the Department of the Interior 
on H.R. 1000, and S. 921, bills to adjust the boundary and authorize an 
exchange of certain lands at William Howard Taft National Historic Site 
located in Cincinnati, Ohio. The Department of the Interior supports 
these bills.
    With one minor exception of a technical nature, H.R. 1000 and S. 
921 are identical bills. H.R. 1000 was the subject of a hearing before 
the House Subcommittee on National Parks, Recreation, and Public Lands, 
on April 26, 2001. At the hearing the witness for the Department of the 
Interior, NPS Associate Director Katherine H. Stevenson, recommended 
several amendments to the bill that would enable it to better address 
the needs of the William Howard Taft National Historic Site. One of 
these amendments would allow the Park Service to purchase one of the 
properties involved in the bill with appropriated funds, the other two 
proposed amendments were primarily technical in nature. The House 
Resources Committee adopted these amendments and reported the bill out 
of committee on May 16, 2001. The bill was passed by the House on June 
6, 2001. With one technical exception which would be corrected by the 
amendment proposed at the conclusion of this testimony, S. 921 is 
identical to the House-passed version of H.R. 1000, and was introduced 
in the Senate on May 21, 2001.
    The William Howard Taft National Historic Site, situated in a 
designated Historic District of the Mount Auburn section of Cincinnati, 
Ohio, is the only memorial to William Howard Taft, the nation's 27th 
President and 10th Chief Justice of the United States. William Howard 
Taft lived at the property that became the historic site from his birth 
in 1857 until his marriage to Helen ``Nellie'' Herron, in 1886. The 
Taft family sold the property in 1889.
    This unit of the National Park System was established by Public Law 
91-132 on December 2, 1969. The site was established specifically to 
``preserve in public ownership historically significant properties 
associated with the life of William Howard Taft.'' Prior to the 
establishment of the historic site the William Howard Taft Memorial 
Association began efforts to acquire and restore the Taft family home. 
In 1963 the association leased part of the house and began to restore 
it. In 1968 the association bought the property. In 1969 the home and 
its 1/2 acre of land was transferred to the United States Government. 
In 1972 an additional 1/3 acre of adjacent land was cleared of an 
existing apartment building and also donated to the Government by the 
William Howard Taft Memorial Association.
    H.R. 1000 and S. 921 would redraw the boundary of the Taft historic 
site to include two parcels of land that are presently contiguous to 
the site. The inclusion of these tracts within the site would benefit 
park visitors by giving them easier access to the site, and by enabling 
the Park Service to better tell the story associated with the site. In 
addition, these bills would benefit the local community of Mount 
Auburn, as it would authorize the National Park Service to transfer a 
tract of land to a leading private educator of Cincinnati, the SABIS 
International School of Cincinnati (SABIS). This tract would enable 
SABIS, which operates a school across the street from the site, to 
better carry out its educational mission.
    The Taft Historic Site is bordered by Southern Avenue on the north, 
Auburn Avenue on the west, Young Street on the east, and Bodman Avenue 
on the south. The primary attractions for visitors are the Taft Home, 
and the Taft Education Center, which are both accessed from Auburn 
Avenue. However, to reach the Home or the Education Center, visitors 
must park along either heavily trafficked Auburn Avenue, or at the NPS 
parking lot, which is at the other end of the block, at the corner of 
Young Street and Southern Avenue. This lot is situated between two 
tracts owned by SABIS, and across the street from other land owned by 
SABIS. Thus, the lot is far more convenient for faculty, and parents of 
students attending the SABIS school, than it is for Taft site visitors.
    H.R. 1000 and S. 921 would enable the National Park Service to 
transfer this land to SABIS, which would enhance SABIS's ability to 
serve the community. In exchange, SABIS would transfer to the National 
Park Service a tract of land that it owns along Southern Avenue. The 
National Park Service would then develop part of this land into a 
parking lot, which would enable visitors to park one-half block closer 
to the Taft Home and Education Center than the present lot allows. The 
National Park Service would allow another part of this land to revert 
to the same. character it possessed during the Taft years of 1857 to 
1899--green space. The National Park Service would also develop a 
handicapped accessible walking trail connecting to the site on part of 
this land to give visitors a better feel for how this land influenced 
the life of William Howard Taft. The bills also provide that if a real 
estate appraisal shows the NPS tract to be of a different value than 
the SABIS tract, additional funds or land may be used to equalize the 
transaction.
    These bills would also bring within the park's boundary another 
tract, approximately three-fourths of an acre that is located at the 
intersection of Southern and Auburn Avenues. This property presently 
contains a residential building with 40 apartments. For the past 18 
years the National Park Service has rented administrative office space 
in this building. The parking lot for this building, which includes a 
Park Service easement, was brought within the boundary of the park by a 
1981 boundary modification. Over the last 15 years, this tract has come 
up for sale on two occasions. Both times the NPS wanted to acquire the 
property, but was unable to submit an offer because the property was 
not within the park boundary. This property has been identified in the 
master plan for the park as land that would further the mission of the 
park.
    While the National Park Service does not have a definitive plan for 
the use of this property at present, the tract could be used for a 
variety of purposes that would further the park mission. In determining 
the best use for this tract we would examine several alternatives, 
including using it to improve access to the site because of its 
location as a corner lot, and its potential for parking spaces; using 
it to aid us in telling the William Howard Taft story, as at least part 
of it could be restored to a condition similar to that which existed 
during the Taft years; and using at least part of it for administrative 
space, which would help the park carry out its business.
    H.R. 1000 and S. 921 would give the Natianal Park Service the 
authority to buy this property when it goes on the market in the 
future. Any potential modifications to the property would be 
accomplished only after consultation and collaboration with all 
identified stakeholders.
    While the two tracts of land that would be brought into the 
historic site by H.R. 1000 and S. 921 were not part of the original 
Taft estate, their acquisition would be consistent with the historic 
site's enabling legislation, which provides that the purpose of the 
site is to ``preserve in public ownership historically significant 
properties associated with the life of William Howard Taft.'' These 
tracts are portions of land that was contiguous to the Taft property 
during the time William Howard Taft resided at the site, and are 
therefore historically significant properties associated with the life 
of William Howard Taft. In addition, these properties take on even 
greater significance in light of the fact that a large piece of the 
original Taft estate that fronts Bodman Avenue will in all likelihood 
never be available to the Park Service. Hamilton County constructed 
several buildings on this site in 1995, which it uses for a juvenile 
detention center.
    Thus, the acquisition of the tracts involved in H.R. 1000 and S. 
921 may represent the last chance the Park Service has to deal with 
encroaching urban development that impedes its ability to carry out its 
mission at the historic site. Their acquisition is also consistent with 
the park's 1981 Master Plan, which provides for the preservation of 
``those elements from the historic period'', and states that the park 
shall ``provide the appropriate opportunities for visitor use'' and 
``coordinate area planning and management activities with those of 
neighboring communities to attain mutual objectives''.
    The costs to the treasury associated with the two land transactions 
involved in H.R. 1000 and S. 921 are expected to be minimal. The annual 
operating costs that the Park Service would incur in taking over the 
SABIS parking lot would be offset by the costs the Park Service would 
forgo as a result of conveying the parking lot at Young Street and 
Southern Avenue to SABIS. The Park Service would incur nominal costs in 
developing a parking lot and walking trail along this property of 
approximately $65,000. Additionally, the government would not incur any 
significant cost in carrying out this land exchange, as the both 
properties are substantially equal in value.
    The property at Southern and Auburn Avenues has been assessed at 
$505,000. The level of operational costs associated with this site is 
unclear at this time because we do not have a definitive plan for the 
use of this property.
    As noted above, S. 921 differs from the House-passed version of 
H.R. 1000 in one technical respect. To correct this oversight, the word 
``Historic'' should be inserted prior to ``Site'' on page 2, line 6, of 
the bill.
    This concludes my testimony. I would be happy to answer any of your 
questions.
                                S. 1097
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1097, which would provide 
legal authority to permit existing and future natural gas pipelines 
within a portion of Great Smoky Mountains National Park near 
Gatlinburg, Tennessee.
    The Department supports S. 1097. This legislation would help 
address the air pollution problem at Great Smoky Mountains National 
Park by facilitating the use of natural gas as a relatively clean 
source of energy in an area where air quality is poor.
    S. 1097 would provide authority for the continuing operation and 
maintenance of an existing gas main that runs through Great Smoky 
Mountains National Park that has been in place since the 1960's. And, 
it would allow the Secretary of the Interior to authorize construction 
of new gas lines, where otherwise appropriate, across several linear 
park lands managed by Great Smoky Mountains National Park. The areas 
where the new pipelines would be allowed are: the Foothills Parkway, 
which extends parallel to the north boundary of the park for 70 miles; 
the Foothills Parkway Spur, a four-mile-long park road (also U.S. 441) 
which connects the gateway communities of Pigeon Forge and Gatlinburg; 
and the Gatlinburg Bypass which links the Spur to the main body of the 
park. All three areas are linear lands that are managed as scenic 
transportation corridors. S. 1097 would not allow construction of 
natural gas lines across the main body of the park.
    The need for this legislation came to the attention of the National 
Park Service last year, when Great Smoky Mountains National Park 
received a request from Sevier County Utility District in Tennessee for 
permission to install a new natural gas pipeline across the park-owned 
Gatlinburg-Pigeon Forge Spur right-of-way (U.S. 441) in order to 
provide gas service to a new development in the city of Gatlinburg. 
Under 16 U.S.C. 79, the Secretary of the Interior may permit rights-of-
way through units of the National Park System for electrical, phone, 
water, sewer and some other utility services, but that general 
authority explicitly does not authorize installation of natural gas or 
petroleum product-bearing lines.
    Between the 1990 Census and the 2000 Census the population of 
Sevier County, Tennessee, which includes Gatlinburg and Pigeon Forge, 
grew by 39 percent, making it the state's third fastest-growing county. 
Within the county some of the most rapid growth is occurring between 
the Foothills Parkway and the main body of the park in areas not 
currently served by natural gas, other than the single six-inch line 
along the Spur to Gatlinburg.
    The single greatest natural resource problem in Great Smoky 
Mountains National Park is declining air quality. Its vistas are 
reduced by sulfate and particulate emissions. Ozone levels in the 
park's higher elevations reaches levels that pose a hazard to human 
health under Environmental Protection Agency standards. High elevation 
streams and soils are becoming increasingly acidified by airborne acid 
deposition which is threatening plants, wildlife and aquatic systems. A 
large proportion of this pollution is produced by coal-generated 
electrical power plants. Significant progress is being made to reduce 
emissions from power generation, and that progress could be aided if 
the thousands of new homes and businesses that are springing up in 
surrounding communities turn to the use of natural gas for their 
heating needs. The authority provided by S. 1097 would enable greater 
usage of natural gas.
    The need for an authorization for existing natural gas pipelines 
stems from the developments that led to current National Park Service 
management of the Foothills Parkway Spur. The Foothills Parkway Spur 
was built by the Federal government in the 1950's on land acquired by 
the State of Tennessee and donated to the Federal government. In 1963, 
an agreement was signed between the National Park Service and the State 
of Tennessee that called for the Spur to be transferred back to the 
State after the Federal government built the Gatlinburg Bypass on other 
lands donated by the State. Subsequent to the 1963 agreement, the 
National Park Service allowed construction of a six-inch natural gas 
main down the Spur which still provides the only gas service to 
Gatlinburg.
    At that time, the National Park Service's only concern was to 
ensure that the line's installation was acceptable to the State of 
Tennessee as the land's future owner.
    Although the Gatlinburg Bypass was completed in 1968, the State has 
declined, for a variety of reasons, to accept the Spur back into State 
ownership, leaving the National Park Service with a pipeline it has no 
current authority to permit. This legislation will allow for the 
continued operation and maintenance of this line.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

    Senator Akaka. Thank you very much. As I understand this 
issue is non-controversial. Mr. Parsons, it is clear that 
rights-of-way for gas pipelines would only be authorized along 
existing rights-of-way and would not be otherwise allowed to 
cross through the park.
    Mr. Parsons. Right. This is limited to the Foothills 
Parkway and not across Great Smoky Mountains National Park.
    Senator Akaka. Before we conclude this hearing this 
afternoon, I would like to announce that the hearing record 
will remain open for one week, if anyone wants to submit 
additional comments on any of these bills. And I would like to 
take the time to thank all the witnesses for their testimony 
this afternoon. And I would especially like to thank Mr. 
Parsons for staying here the entire afternoon.
    Mr. Parsons. Well, thank you, Mr. Chairman. I think this is 
a good idea to have rather than the administration witness just 
run through their testimony as to get the panels together. And 
it is much more productive I think.
    Senator Akaka. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 5:25 p.m., the hearing was adjourned.]

    [Subsequent to the hearing, the following was received for 
the record:]
                   National Parks Conservation Association,
                                     Washington, DC, July 16, 2001.
Hon. Daniel Akaka,
Chairman, Subcommittee on National Parks, Historic Preservation, and 
        Recreation, Committee on Energy and Natural Resources, U.S. 
        Senate, Washington, DC.

Re: S. 281, proposed education center at Vietnam Veterans Memorial on 
the National Mall

    Dear Senator Akaka: The National Parks Conservation Association 
(NPCA) is the only national nonprofit organization dedicated solely to 
protecting national parks for future generations. On behalf of our more 
than 450,000 members nationwide, I am writing in opposition to S. 281, 
a bill to construct an education center near the Vietnam Veterans 
Memorial on the National Mall.
    In 1986, Congress passed and President Ronald Reagan signed into 
law the Commemorative Works Act to regulate the placement of 
commemorative works on Federal land in the District of Columbia and its 
environs. Congress took this action in direct response to the 
proliferation of memorials, monuments, and other structures that would 
encroach on the open spaces and national significance of the National 
Mall, a National Historic Landmark.
    Building on the intent of the Commemorative Works Act, in 2000 the 
federal National Capital Planning Commission (NCPC) proposed 
establishment of a Reserve on the Mall's central cross-axes in which no 
new memorial sites would be approved. The Reserve would encompass the 
Mall's central cross-axis formed by the U.S. Capitol, Lincoln Memorial, 
White House, Washington Monument, and Jefferson Memorial. NCPC designed 
a draft Master Plan to encourage the location of future memorials, 
museums, and monuments at other prominent locations throughout the 
Nation's Capital. NPCA strongly supports establishment of the proposed 
Reserve.
    We agree that as the years pass it is important to teach future 
generations about the Vietnam War and other conflicts. However, we 
encourage the Subcommittee to consider reasonable alternatives to S. 
281. In addition to locating the proposed education center somewhere 
off the Mall, other possibilities include designating a site to provide 
substantive interpretation for all of the memorials and monuments 
currently on the National Mall. As the draft Master Plan demonstrates, 
there are a number of readily available nearby sites.
    The emotional and aesthetic power of the Vietnam Veterans Memorial 
derives in part from the simplicity of its design and the natural 
serenity of its immediate environment. The proposed museum/education 
center would disrupt that serenity. Four times the size of the existing 
kiosk located nearby, the proposed structure would cause a major 
alteration of historic views of the Lincoln Memorial.
    The National Mall is America's ``Town Square,'' a place where all 
can gather and learn about our common heritage. We are concerned that 
its historic open space and vistas will be compromised, and the impact 
of existing memorials and monuments diminished if they have to compete 
with numerous other sites. Without a change in policy, the Mall's 
traditional Monumental Core may have to accommodate at least 50 new 
memorials and numerous new museums by 2050. In seeking to continue to 
add to this area, we risk greatly diminishing it.
    It is therefore critical that Congress support establishment of the 
Reserve, and that the Commemorative Works Act be amended to encourage 
meaningful, early public involvement in site selection and memorial 
design processes. Such involvement is necessary to avoid the intense 
controversies provoked by other recently proposed memorials.
    We urge the Subcommittee to support the ``Reserve Area'' as 
proposed by the NCPC and amend S. 281 to seek other sites that can 
serve to educate future generations about the Vietnam War.
    Sincerely,
                                             Kevin Collins,
                               Acting Director, Government Affairs.


</pre></body></html>
